<html>
<title> - PROTECTING THE HOMELAND: HOW CAN DHS USE DOD TECHNOLOGY TO SECURE THE BORDER?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








 PROTECTING THE HOMELAND: HOW CAN DHS USE DOD TECHNOLOGY TO SECURE THE 
                                BORDER?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2011

                               __________

                           Serial No. 112-56

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-532 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     9

                               Witnesses

Mr. Paul N. Stockton, Assistant Secretary of Defense for Homeland 
  Defense and America's Security Affairs, Office of Under 
  Secretary of Defense for Policy, U.S. Department of Defense:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Mark S. Borkowski, Assistant Commissioner, Office of 
  Technology Innovation and Acquisition, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    17
Mr. Adam Cox, Deputy Director (Acting), Homeland Security 
  Advanced Research Projects Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    26
  Joint Prepared Statement.......................................    17
Mr. Michael Tangora, Deputy Assistant Commandant and Director of 
  Acquisition Services, United States Coast Guard, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    28
  Joint Prepared Statement.......................................    17

                             For the Record

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Letter.........................................................     7

                                Appendix

Questions for Paul N. Stockton From Honorable Michael T. McCaul..    47
Questions for the Department of Homeland Security From Honorable 
  Mike Rogers....................................................    48
Questions for the Department of Homeland Security From Honorable 
  Michael T. McCaul..............................................    48

 
 PROTECTING THE HOMELAND: HOW CAN DHS USE DOD TECHNOLOGY TO SECURE THE 
                                BORDER?

                              ----------                              


                       Tuesday, November 15, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Duncan, 
Cuellar, Sanchez, Jackson Lee, Clarke of Michigan, and 
Thompson.
    Mrs. Miller. Good morning, everyone. The Committee on 
Homeland Security Subcommittee on Border and Maritime Security 
will come to order.
    The subcommittee today is meeting to hear testimony from 
Paul Stockton, the assistant secretary of defense for Homeland 
Defense and America's Security Affairs; Mark Borkowski, who is 
CBP's Office of Technology Innovation and Acquisition chair; 
Dr. Adam Cox, acting deputy director of the Homeland Security 
Advanced Research Projects; and Michael Tangora, of the U.S. 
Coast Guard--he is the deputy assistant commandant for 
acquisition on the use of Department of Defense technology by 
the Department of Homeland Security. So, fantastic witnesses 
that we have here today.
    Let me just recognize myself for an opening statement.
    We think that three main tools have really been brought to 
bear to help secure our Nation's porous border: Personnel, of 
course; infrastructure; and technology. We have nearly doubled 
the size of the U.S. Border Patrol since 2004, and we have 
built nearly 650 miles of vehicle and pedestrian fence. We have 
spent nearly $1 billion as a Nation on the now-cancelled Secure 
Border Initiative, SBInet, and we have had a number of hearings 
on that in this committee and our full committee, as well.
    Today we are having this hearing. We have called it today 
to examine how the Department of Homeland Security can use off-
the-shelf hardware, innovative Department of Defense technology 
and hardware to address the needs of the men and women who are 
charged with securing our Nation's border.
    For years we have been trying the same basic technology on 
the borders: Some variation of cameras mounted onto towers. The 
SBInet was just the latest version of really a similar 
technology that we have been using on the Southwest Border for 
many years, starting with ISIS, and then P28, and of course, 
the SBInet, and the successor, Integrated Fixed Towers.
    GAO's recent report casts some doubt on CBP's ability to 
accurately forecast the 10-year life-cycle cost for the 
Integrated Fixed Towers, roughly estimated at $1.5 billion, and 
add to that, of course, $1 billion, as I mentioned, already 
spent on SBInet where we just have coverage for about 53 miles 
of virtual fence, and this, of course, is a very serious 
investment by the American taxpayer thus far.
    Congress needs to be able to justify to the American people 
that our border is tangibly more secure as a result of that 
spending and other spending that we are doing, and I think that 
the budget situation, obviously, that we face is--all of us are 
painfully aware of what is happening at the Federal level here, 
and Federal funding levels are heading in one direction--down--
and we need to be good stewards of very scarce taxpayer dollars 
to provide the security the American people demand. Again, 
keeping, in fact, in mind, being very cognizant of the fiscal 
restraints that we currently are operating under.
    My hope is that CBP will be listening to the concerns of 
GAO and that we look at possibilities of cost overruns and 
delays as we field the Integrated Fixed Towers and the mix of 
technologies selected to replace SBInet. Although we face 
challenges with the technology on the border, I am absolutely 
convinced that America certainly needs a robust technology 
solution for the border because we can't build enough fence or 
afford thousands of additional agents to link arms to prevent 
illegal crossings or do drug interdiction and other kinds of 
things. Technology, if properly applied, can leverage the 
Nation's previous investment in manpower and infrastructure to 
more effectively secure our borders.
    For some time myself, along with many of my colleagues here 
on the dais, have been advocating for the use of the Department 
of Defense--the DOD's technology to be tested and, where 
appropriate, to be used where it has application along our 
Nation's borders. Of course, again, we are thinking of this 
because the American taxpayer has already spent their money--
they spent billions of dollars on R&D, on research and 
development, to test, to prove, to field all kinds of various 
types of equipment.
    I think as our military is now drawing down in both Iraq 
and Afghanistan we should, certainly at a minimum, consider 
using DOD equipment to determine if it can fill a capabilities 
gap right here at home instead of, perhaps, just putting it out 
into a warehouse or looking at other uses for it. I think there 
are some real applications for DOD in regards to DHS.
    The Predator B, the drone, is perhaps the best example of 
how DOD technology can be successfully utilized along the 
border. It has literally revolutionized how we fight insurgents 
in the border between Afghanistan and Pakistan and the 
officials at the Department of Homeland rightly saw the 
potential for its use here at home, and now we have eight 
unmanned aerial vehicles patrolling the skies over the Northern 
Border, the Southern Border, the Coastal Borders, as well. 
Again, my colleagues and I have had a number of hearings on the 
UAVs.
    Aerostats are another surveillance platform that has been 
used successfully in theater, being currently used along the 
border, and I think if surplus aerostats come back from theater 
that they could be used to increase our central awareness along 
the Southwest Border. That was actually an amendment filed to 
the reauthorization that this committee recently did by my 
Ranking Member and Mr. McCaul, in regards to the aerostats.
    The purpose of this hearing is to examine the process that 
the Department of Homeland Security uses to locate--what they 
call foraging--forage for technology that has application for 
the homeland environment. Science and Technology has an 
important role to play in helping the Department of Homeland 
Security component understand what technology is available for 
use and what technology is being developed to meet our 
capability gaps.
    DOD has some small-scale technology transfer programs for 
the Nation's first responders, and I certainly commend them for 
the work that they do through that program. But it is also our 
intent to see what Congress can do to facilitate the transfer 
of larger, more sophisticated technology solutions, as I 
mentioned, like the Predator drone, tunnel detection, and a 
wide area of surveillance platforms.
    DOD is obviously a huge organization, and I think we are 
somewhat concerned that there is not one single office that the 
Department of Homeland Security can go to to find technology 
solutions that may have applicability for our border security 
efforts, and we will be asking some questions about that today. 
Certainly not every piece of equipment within the DOD inventory 
will work on the border or be affordable by the Department of 
Homeland, but there should be some sort of a formal structure 
to facilitate the testing and the evaluation of equipment to 
see what works and what doesn't.
    DHS should be constantly searching for technology already 
purchased by the Government to help our agents better secure 
the Nation, both at home and--at our borders and between the 
ports of entry, as well. So I certainly look forward to the 
testimony of all of our witnesses.
    That really is the predicate for our hearing this morning, 
as we keep thinking about an evolving world and less money at 
the Federal level, and how we can actually utilize so many of 
these various things that I say are sort of off-the-shelf 
hardware from the Department of Defense that have application 
for securing our border. I think we have a lot of fertile 
territory there to till, and especially, as we have mentioned, 
in light of the fact of the drawdown in theater in Iraq and 
Afghanistan. How can we utilize some of these things very, very 
effectively?
    With that, I would recognize my Ranking Member of the 
subcommittee, Mr. Cuellar, for his opening statements.
    [The statement of Chairwoman Miller follows:]
           Prepared Statement of Chairwoman Candice S. Miller
                           November 15, 2011
    Three main tools have been brought to bear to help secure the 
Nation's porous border: Personnel, infrastructure, and technology. We 
have nearly doubled the size of the U.S. Border Patrol since 2004, we 
have built nearly 650 miles of vehicle and pedestrian fence, and we 
have spent nearly $1 billion on the now-cancelled Secure Border 
Initiative. I have called this hearing today to examine how DHS can use 
off-the-shelf, innovative Department of Defense technology and hardware 
to address the needs of the men and women who are charged with securing 
our border.
    For years we have been using the same basic technology on the 
borders--cameras mounted on towers. SBInet was just the latest version 
of the same technology we have been using on the Southwest Border for 
years starting with ISIS, P-28, SBInet, and the successor--Integrated 
Fixed Towers. All of these high-technology solutions have a less than 
stellar track record on the Southwest Border due to a combination of 
mismanagement, poor planning, and a top-down approach that failed to 
take into account the actual needs of the Border Patrol Agents on the 
ground.
    GAO's recent report casts some more doubt on CBP's ability to 
accurately forecast the 10-year life-cycle cost for the Integrated 
Fixed Towers--roughly estimated at $1.5 billion dollars. Add that to 
the $1 billion already spent on SBInet for just 53 miles of virtual 
fence and we are talking about a serious investment by the American 
taxpayer. Congress needs to be able to justify to the American people 
that our border is tangibly more secure as a result of that spending. 
My hope is that CBP will listen to the concerns of GAO and will not 
lead us down that same path with cost overruns and delays as we field 
the Integrated Fixed Towers.
    Although we have faced challenges with technology on the border, 
America still needs a robust technological solution because we can't 
build enough fence or afford thousands of additional agents to link 
arms to prevent illegal crossings. Technology, if properly applied, can 
leverage the Nation's previous investment in manpower and 
infrastructure to more effectively secure our borders. However, let us 
be under no illusion, the budget situation is dire, and we need to be 
good stewards of scarce taxpayer dollars to provide the security the 
American people demand, without breaking the bank.
    For some time I, along with some of my colleagues here on the dais, 
have been advocating for the use of Department of Defense technology to 
be tested, and where appropriate, used along the Nation's borders. The 
reason is simple, the American taxpayer has already spent billions of 
research and development dollars to test, prove, and field such 
equipment. As our military draws down in Iraq and Afghanistan we 
should, at a minimum, consider using Department of Defense equipment to 
determine if it can fill a capabilities gap here at home instead of 
collecting dust on a shelf or in a warehouse.
    The Predator B is perhaps the best example of how DOD technology 
can be successfully used along the border. It has literally 
revolutionized how we fight insurgents in the border between 
Afghanistan and Pakistan. Officials at DHS rightly saw the potential 
for its use here at home and now we have eight unmanned aerial vehicles 
patrolling the skies over the Northern, Southern, and Coastal Borders. 
Aerostats are another surveillance platform that has been used 
successfully in theater, and should be tested along the border.
    The purpose of this hearing is to examine the process that DHS uses 
to locate technology that has application for the homeland environment. 
I have no doubt there are other technologies waiting to be found and 
applied to defend the homeland. The Science and Technology Directorate 
has an important role to play in helping DHS components understand what 
technology is available for use, and what technology is being developed 
to meet our capability gaps.
    I understand that DOD has some small-scale technology transfer 
programs for the Nation's first responders, and I commend them for the 
work they do through that program, but my intent is to see what 
Congress can do to facilitate the transfer of sophisticated technology 
solutions specifically for use by DHS.
    DOD is a huge organization and I am concerned that there is not one 
single office that DHS can go to and find technology solutions that may 
have applicability for our border security efforts. Not every piece of 
equipment within the DOD inventory will work on the border, but there 
should be a formal structure to facilitate the testing and evaluation 
of equipment to see what works, and what doesn't. DHS should be 
constantly searching for technology already purchased by Government to 
help our agents better secure the Nation both at and between the ports 
of entry.
    I look forward to the witness's testimony.

    Mr. Cuellar. Thank you, Madam Chairwoman. Thank you for 
holding this meeting today.
    Thank you, Mr. Thompson.
    Madam Chairwoman, if you would ask me just--I mean, allow 
me just for a point I just noticed that my brother, who is a 
sheriff on the border, Martin Cuellar, who served with DPS, 
Narcotics, and Intelligence, I believe, for about 27 years, 
just walked in. So if you don't mind, just to keep family 
harmony together, I would ask my brother, and I think he has 
got some of his deputies also here.
    So, Martin Cuellar, up there. Just----
    Mrs. Miller. Welcome. Welcome. We appreciate your service--
and your brother. Everyone in your family.
    Mr. Cuellar. Let me, again, thank you, Madam Chairwoman.
    As a Member of Congress representing a district along the 
Southern Border I have had the opportunity to see first-hand 
the benefits of the Department of Homeland Security's 
collaboration with the Department of Defense, with the--working 
with Mr. Borkowski, also, and other folks there, and of course 
the Coast Guard, also, along on our border security technology. 
Last year both Mr. McCaul and some of the Members who were down 
there, and we saw a DHS-DOD operation on Laredo, Texas, where 
technology was used to secure the border.
    Mr. Borkowski, thank you, again, for being there with us at 
that time.
    DIA, I believe, was the other partner. Again, I think this 
is something that, you know, we have been on it, as the 
Chairwoman said. We have been asking the SBI and the Science 
and Technology parts of DHS to look at what taxpayers have paid 
already and see what the Department of Defense has so we can go 
ahead and use that as much as possible along the Southern 
Border.
    I truly understand, some things we can use, some things we 
can't use. But working together, I think, it will be important.
    Along with, again, with my other colleagues from Texas, Mr. 
McCaul and myself, we have been supporters of the DHS use of 
unmanned aerial systems, the UAS, along the border. We just got 
our second one down there. We will be working with General 
Kostelnik on that one.
    Again, this is another example of how technology developed 
for the DOD has been a proven invaluable DHS border security 
mission. Most recently, with Chairman McCaul, we traveled on a 
Congressional delegation--Mr. Duncan, I believe--well, Mr. 
Duncan was with us, also, and we traveled to the Middle East 
down there, and when we were in Iraq and Afghanistan we saw 
some of the technology that I think will have an application 
for Homeland Security.
    As the military drawdown in Iraq continues there may be 
technology and equipment that is no longer needed there but may 
be used through DHS, and I think the questions that I asked 
there was, ``What are we going to do with the billions of 
dollars of assets, which includes technology?'' The answer that 
General Austin there gave us there, and the ambassador, was 
that: No. 1, part of it will be transferred to Afghanistan; No. 
2, some of it will be repositioned in Kuwait or wherever the 
case might be; and No. 3, the rest will be--or the--part of it 
will be coming down to the United States.
    Of course, our question is: No. 1, how does DHS use that? 
No. 2, how do we have State officials--for example, the Texas 
National Guard has communicated both to McCaul and myself that 
they are interested in some of the equipment resources that 
they can certainly use for the border, and certainly in 
California, Arizona, New Mexico, or other areas, and the 
northern area, also, that can be used also.
    One of the issues that came up--and I believe, Assistant 
Secretary Stockton, you will address this issue--was how do we 
pay for this? Because most of it is--for example, a sheriff or 
police can get on a website and say, ``This is equipment that 
we want.''
    But the understanding, at least what they told us in Iraq, 
and I think you gave us a--you are going to give us an answer, 
was that, who is going to pay for this technology? I mean, you 
are going to have a small town sheriff that is going to say, 
``I want this technology, but how much would it cost to bring 
it from Iraq all the way down to Arizona?'', for example, and 
it might be prohibitive.
    But my understanding is it might be where there is excess 
space that they can put on, and we certainly would like for the 
committee to hear this is something that the Northern Border, 
the Southern Border can certainly use. Whether it is DHS, Mr. 
Borkowski, whether it is a sheriff, or National Guard, I think 
this is something that we certainly want to look at as to how 
we can do that. Because I was talking to Mr. Norm Dicks about 
putting some language there in the appropriation bill to see if 
we can take care of it, but if it is something that you all 
could handle, or it is something that we might have to follow 
up, I would ask you to do that.
    So again, I am also pleased that we also have the Coast 
Guard present here. You know, when we talk about border 
security technology that facilitates the interdiction, whether 
it is narcotics, or undocumented aliens, or those who wish to 
do harm to us, we know that people will take the route where 
they perceive to offer the best opportunity to enter the 
country. If we secure the land borders and the maritime borders 
people will, you know, if we take care of the land they will go 
through the maritime, or push on the maritime they will come 
in. It is like a balloon that you press, and they will pop up 
somewhere else.
    So we have got to make sure that we are all working along, 
and certainly the maritime, the Coast Guard, is something, and 
certainly on the Texas border we have the Rio Grande. It is an 
area of international waters. We had a little discussion with 
Coast Guard, and I think you have, I think we are all on the 
same page that it is international waters.
    I think you all are doing some pulse--especially in Lake 
Falcon, as you remember, Madam Chairwoman, that is where the 
individual got killed, which happened 2\1/2\ miles on the 
Mexican side--not on the U.S. side, for emphasis. Then you have 
Lake Amistad, also, where you do some of that work, also, 
there.
    Last year's Coast Guard authorization I added some 
language--authored some language that directed the Coast Guard 
to prepare a mission requirement analysis for the navigable 
parts of Rio Grande, which includes those two large lakes. We 
finally got a copy, little late, but we finally got a copy of 
this. Members, I am going to provide to you, for official use 
only; this is not to be shared with the public, but for 
official use, and this will be handed out to the committee 
Members.
    But I asked Coast Guard to put something out that we can 
put out in public, so I would ask, Madam Chairwoman, that this 
letter that is addressed to me from the Coast Guard to be made 
part of the record.
    Mrs. Miller. Without objection.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Cuellar. Basically there are, because we want to use 
technology, and we will look at the risk, but the main thing 
that came out of this--and this is important for you to note--
this is the Coast Guard saying this, this is no--this is the 
Coast Guard. Let me just leave it like this.
    But the main thing is, when they talked about the drug 
cartels and what sort of violence they provide, they said on 
the Mexican side the drug cartels it is a high threat; on the 
U.S. side--and I emphasize this--on the U.S. side the Coast 
Guard said that it was a moderate threat to the United States, 
at least on the navigable part, on the lake part of it.
    So when you look at the drug trafficking organizations and 
what challenges they have--and as you know, they have a low, a 
moderate, and I think it is a high one, there are about four of 
them--just for the record, the Coast Guard said it was a 
moderate threat on the U.S. side. When we asked them, also, 
about smuggling of migrants, at least on the water side of it, 
on the border Rio Grande and the lakes, they said that the 
level of migrant activity has been relatively low compared to 
other parts of the country itself.
    So therefore, when we were asking--the reason I put this 
assessment, because I wanted to get an assessment so we can get 
the Coast Guard involved a lot more instead of a pulse--I think 
you all go, like, every quarter, you do your fly-overs and put 
your boats out there.
    Based on this report, Members, they are saying, what we are 
doing now, the pulse, is sufficient, and therefore, this is 
what they are doing. So I would ask you to look at this report.
    Finally, just to go ahead and conclude, we know that we are 
in particularly tough budgetary times, but again, as the Madam 
Chairwoman and a lot of us have been saying for a long time, if 
there are taxpayers' dollars that are being used for Defense 
let's use that for Homeland Security. So I certainly look 
forward to listening to the witnesses, and I thank you all very 
much.
    Mrs. Miller. Thank the gentleman. The Chairwoman now 
recognizes the Ranking Member of the full committee, the 
gentleman from Mississippi, for his opening statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman, for 
holding this hearing. I welcome and look forward to the 
testimony of our witnesses.
    This committee has a long history of oversight of the 
Department of Homeland Security's efforts to deploy technology 
along our Nation's border. Since the inception of DHS's 
efforts, Department of Defense technology and expertise has 
played an important role.
    To the extent that the DoD has technology or equipment that 
may be useful to DHS's mission to secure the homeland, it makes 
sense that DHS take advantage of those sources whenever 
possible. Particularly in the current budget environment, the 
Federal Government must make taxpayers' dollars go further.
    I hope to hear from our witnesses today about the existing 
relationship between DoD and DHS regarding security 
technologies. I would also like to hear whether the witnesses 
believe a more formal, comprehensive process for technology 
transfer between the agencies would be advantageous.
    That being said, we should be mindful that there are 
limitations to this approach to border security technology. DHS 
and DoD have different missions, so it stands to reason their 
technologies may differ. In some cases, a less elaborate, more 
affordable technology may fully meet DHS's requirement, and 
those kind of technologies should not be overlooked.
    Even where the agencies' needs align, there are likely to 
be obstacles. For example, just because a technology works in 
Afghanistan does not mean it will work in Arizona. Technology 
may have to be adapted due to differences in terrain and 
climate, or it may simply be inappropriate for use in the 
homeland.
    Also, just because a technology fits within DoD's budget 
does not necessarily mean it will fit within DHS's budget. 
DoD's technology acquisition budget is orders of magnitude 
greater than DHS's, so what is affordable for one agency may 
not be for the other.
    I hope to hear from our DHS witnesses about these 
challenges and how they address them as they examine the array 
of available security technologies.
    Also, since we are here today to discuss border security 
technology, I would be remiss if I did not address a report 
released this month by GAO on Customs and Border Protection's 
Arizona Border Surveillance Technology Plan. In short, GAO 
found that DHS does not have the information necessary to fully 
support and implement the estimated $1.5 billion plan, which is 
the successor to the cancelled SBInet program.
    More specifically, the report states that DHS does not yet 
demonstrate the effectiveness and suitability of its new 
approach for deploying surveillance technology in Arizona and 
that it needs to document how, where, and why it plans to 
deploy specific combinations of technology prior to its 
acquisition and deployment. Also, GAO found that $1.5 billion 
10-year cost estimate for the program may not be reliable.
    I have said that the similarities GAO found between the 
failed SBInet program and aspects of the planned Arizona Border 
Surveillance Technology Plan are both striking and troubling. 
There is still time for DHS to avoid another failed border 
security technology project, but DHS must heed GAO's 
recommendation by conducting a thorough and accurate cost 
analysis and carefully planning the purchase and deployment of 
technology.
    I certainly hope CBP is following through on GAO's 
recommendation, and I would ask Mr. Borkowski to speak to that 
issue today.
    I thank our witnesses for joining us, and I look forward to 
their testimony.
    Mrs. Miller. Thank the gentleman very much for his opening 
statement.
    Other Members of the committee are reminded that their 
opening statements may be submitted for the record. Then what I 
am going to do is go through the bios of each one of our 
witnesses today, and then we will start with Mr. Stockton.
    Paul Stockton is the assistant secretary of defense for 
Homeland Defense and America's Security Affairs. In this 
position he is responsible for the supervision of homeland 
defense activities, defense support for civilian authorities, 
and Western Hemisphere security affairs for the Department of 
Defense. Prior to his confirmation, Assistant Secretary 
Stockton was a senior research scholar at Stanford University's 
Center for International Security and Cooperation.
    Mark Borkowski became the assistant commissioner for the 
Office of Technology Innovation and Acquisition with U.S. 
Customs and Border Protection in July 2010. He is responsible 
for ensuring technology efforts are properly focused on mission 
and well-integrated across CBP and for strengthening 
effectiveness in acquisition and program management.
    Prior to his appointment as the assistant commissioner Mr. 
Borkowski was named executive director of the SBInet. As 
executive director, he oversees the Department of Homeland 
Security's implementation of SBI at U.S. Customs and Border 
Protection and oversees the continued efforts to develop border 
security resources that will provide enhanced situational 
awareness for front-line CBP personnel.
    Mr. Borkowski served over 23 years on active duty in the 
United States Air Force, retiring at the rank of colonel.
    Dr. Adam Cox is currently the acting deputy director of the 
Homeland Security Advanced Research Projects Agency. Formerly, 
he was the chief of staff for the Strategy, Policy, and Budget 
Division. In this role he acted as a principal liaison with 
Congressional staff and OMB and worked to align DHS S&T 
programs with the priorities and goals of the administration, 
Congress, and the Department.
    Michael Tangora is the deputy assistant commandant for 
acquisition and director of acquisition services for the United 
States Coast Guard. Prior to assuming this role he served as 
deputy program executive officer for the Coast Guard's 
Integrated Deepwater System. A Level 3 acquisition and program 
management professional, he came to the Coast Guard from the 
Navy, where he served as the deputy program manager for the 
Navy's aircraft carrier programs.
    He was previously assigned as the assistant program manager 
and technical director for surface mine warfare systems 
programs, where he was responsible for the Navy's total mine 
inventory, as well as all mine warfare sonar and autonomous 
vehicles used to persecute enemy mines.
    Very, very distinguished panel, so we appreciate all of you 
coming today and look forward to your testimony and Q&A, as 
well.
    We will start with Mr. Stockton.

 STATEMENT OF PAUL N. STOCKTON, ASSISTANT SECRETARY OF DEFENSE 
FOR HOMELAND DEFENSE AND AMERICA'S SECURITY AFFAIRS, OFFICE OF 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Stockton. Chairman Miller, Ranking Member Cuellar, 
distinguished Members of the subcommittee, I am going to cut to 
the chase right now: We have an historic opportunity with the 
drawdown of operations outside the United States to continue to 
press forward to find ways of supporting the Department of 
Homeland Security, our other Federal partners, State and local 
first responders, so the military technology that you pointed 
out, Chairwoman, that the taxpayers already pay to develop, 
that we find ways of transferring that technology at a time 
when the budgets of our State and local first responders are 
under incredible pressure.
    This is a great opportunity. We have a one-stop shopping 
opportunity for our Federal partners and for the State and 
local first responders with whom we coordinate. That is me. 
That is what I do. It is a responsibility I take very, very 
seriously, and I will be happy to talk a little bit more about 
how that process works a little bit later.
    But first, let me take just a couple of moments to briefly 
summarize the programs that we have underway, especially those 
programs, Ranking Member Cuellar, that recognize the problem of 
affordability. First of all, we have acquisition programs in 
the Department of Defense to facilitate Federal, State, and 
local agency acquisition of equipment from the Department of 
Defense. So we, in summary, for certain scarce types of 
technology and equipment, we make it possible to buy these 
pieces of equipment from the Department of Defense.
    I think more valuable, given the kind of budget crunch that 
States and localities are in today, are our excess property 
programs. We operate programs to transfer excess DoD equipment 
to Federal, State, and local agencies. In 50 States and more 
than 1,700 Federal, State, and local agencies they have 
received over $2.6 billion worth of donated excess DoD 
equipment for use in counterdrug, counterterrorism activities, 
border security.
    Let me emphasize that we are drastically ramping up the 
pace at which we are able to provide this equipment that our 
first responders and our Federal partners say they need. This 
year alone we have gone--my testimony says $500 million--we 
have just passed $600 million worth of equipment in this fiscal 
year alone that is required by States and localities and our 
Federal partners in order to do their jobs, including support 
to border security.
    Let me give you some examples: 27 light armored vehicles 
provided to law enforcement organizations in 10 States; three 
C-12 aircraft worth $4 million each to California's Department 
of Forestry, fire protection; tactical vehicles and helicopters 
worth $5 million that went to DHS Immigration and Customs 
Enforcement; robots, radiological detection equipment. Lots and 
lots of valuable equipment that DoD was able to acquire thanks 
to the taxpayers we are now transferring to our Federal 
partners and our State and local first responders, recognizing 
the budget crunch that they are in.
    We also have another way of transferring DoD equipment to 
our partners that is low-cost, and that is equipment loan-lease 
programs. So, for example, robotics for IEDs and other 
explosive ordinance disposal--very, very expensive to have 
these robots for local governments to purchase them; instead, 
we loan these robots to local law enforcement agencies, other 
public safety organizations.
    We enable bomb squads to meet their certification 
requirements. We have a night vision loan pool that provides 
very expensive night vision equipment to local law enforcement 
jurisdictions on a loan basis. We maintain the pool. We provide 
it to those agencies in 48 States.
    Then we have expertise-sharing. You pointed out, Chairman, 
that the Department of Defense has acquired enormous expertise 
in dealing with explosive ordinance disposal, other kinds of 
challenges that we have faced abroad. Now we provide that kind 
of training, for example, to the Hazardous Devices School, an 
FBI investigation facility which is operated in Redstone 
Arsenal, Alabama.
    I will point out that I have had the honor of supporting 
the Center for Domestic Preparedness in my past life. It is a 
wonderful institution, and in my old job in the Department of 
Defense we really enjoyed having an opportunity to support the 
curriculum development and the very important work that CDP 
continues to do.
    We have dual-use technologies that I hope to be able to 
speak to later. It is all in my testimony, and I see my time is 
up. Thank you.
    [The prepared statement of Mr. Stockton follows:]
                 Prepared Statement of Paul N. Stockton
                           November 15, 2011
                              introduction
    Chairman Miller, Ranking Member Cuellar, distinguished Members of 
the subcommittee: Thank you for the opportunity to address you today on 
the Department of Defense's (DoD's) programs for transferring 
capabilities and equipment to its Federal, State, and local partners.
    DoD supports the Department of Homeland Security (DHS), and other 
Federal partners, as part of a whole-of-Government, whole-of-Nation 
approach to both domestic security and domestic incident response. One 
of the pillars of the Department's Strategy for Homeland Defense and 
Civil Support is to promote the integrating and sharing of applicable 
DoD capabilities, equipment, technologies, and technical expertise with 
Federal, State, local, Tribal, and private sector partners. This 
sharing arrangement strengthens the Nation's ability to respond to 
threats and domestic emergencies. DoD continues to work closely with 
its interagency partners, in particular DHS, to build capacity 
vertically from the Federal level down to the local level, and 
horizontally across the Federal Government. I want to thank Congress 
for providing DoD with the tools that are absolutely essential to 
making this possible.
    In accordance with Section 1401 of the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003 (Pub. L. 107-314), I serve as 
the senior DoD official responsible for coordinating ``all Department 
of Defense efforts to identify, evaluate, deploy, and transfer to 
Federal, State, and local first responders technology items and 
equipment in support of homeland security.'' To this end, I established 
what I call the ``DoD Domestic Preparedness Support Initiative.'' 
Through this program, I work closely with DHS, the Department of 
Justice (DOJ), and our other Federal, State, and local partners.
    The Domestic Preparedness Support Initiative focuses on five 
approaches: Acquisition programs; excess property programs; equipment 
loan-lease programs; expertise sharing; and the leveraging of dual-use 
technologies developed by DoD.
                          acquisition programs
    DoD operates several programs to facilitate Federal, State, and 
local agency acquisition of equipment from DoD. For instance, in 
September 1968, Congress authorized DoD to sell 2 suitable surplus 
equipment to State and local law enforcement and firefighting 
agencies.\1\ In 2010, DoD championed, and Congress passed, an expansion 
of this authority to include homeland security and emergency management 
agencies.\2\ In November 1993, Congress authorized State and local 
governments to purchase law enforcement equipment suitable for counter-
drug activities through DoD.\3\ In 2008, DoD championed, and Congress 
passed, an expansion of this authority to include equipment suitable 
for homeland security and emergency response activities.\4\ In 
September 1996, Congress authorized DoD to sell or donate to Federal 
and State law enforcement agencies excess property suitable for use by 
the agencies in law enforcement activities, including counter-drug and 
counter-terrorism activities.\5\ In October 2000, Congress authorized 
DoD to sell or donate to State firefighting agencies excess property 
suitable for use in fire and emergency medical services.\6\
---------------------------------------------------------------------------
    \1\ 10 U.S.C.  2576, which was established by section 403(a) of an 
Act to authorize appropriations for DoD for Fiscal Year 1969 (Pub. L. 
90-500).
    \2\ Section 1072 of the Ike Skelton National Defense Authorization 
Act for Fiscal Year 2011 (Pub. L. 111-383).
    \3\ 10 U.S.C.  381, which was established by section 1122 of the 
National Defense Authorization Act for Fiscal Year 1994 (Pub. L. 103-
160).
    \4\ Section 885 of the Duncan Hunter National Defense Authorization 
Act for Fiscal Year 2009 (Pub. L. 110-417).
    \5\ 10 U.S.C.  2576a, which was established by section 1033 of the 
National Defense Authorization Act for Fiscal Year 1997 (Pub. L. 104-
201).
    \6\ 10 U.S.C.  2576b, which was established by section 1706 of 
Floyd D. Spence National Defense Authorization Act for Fiscal Year 2001 
(Pub. L. 106-398).
---------------------------------------------------------------------------
    At least 43 States access DoD procurement contracts through these 
programs, allowing law enforcement agencies to purchase weapons and 
ammunition; chemical and biological defense equipment (e.g., 
decontamination, full body protection, shelter protection, and 
respiration protection); aviation support equipment (e.g., aviation 
parts and support items); and communications and electronics equipment 
(e.g., early warning systems, tactical radios, and night vision 
goggles).
                        excess property programs
    DoD also operates programs to transfer excess DoD equipment to 
Federal, State, and local agencies. For example, as noted above, in 
September 1996, Congress authorized DoD to donate to Federal and State 
law enforcement agencies excess property suitable for use in counter-
drug and counter-terrorism activities.\7\ Also, as noted above, in 
October 2000, Congress authorized DoD to donate State firefighting 
agencies excess property suitable for use in firefighting 
activities.\8\
---------------------------------------------------------------------------
    \7\ 10 U.S.C.  2576a, which was established by section 1033 of the 
National Defense Authorization Act for Fiscal Year 1997 (Pub. L. 104-
201).
    \8\ 10 U.S.C.  2576b, which was established by section 1706 of 
Floyd D. Spence National Defense Authorization Act for Fiscal Year 2001 
(Pub. L. 106-398).
---------------------------------------------------------------------------
    All 50 States and more than 17,000 Federal, State, and local 
agencies have received more than $2.6 billion \9\ worth of donated 
excess DoD equipment for use in counter-drug and counter-terrorism 
activities, almost $500 million of this in fiscal year 2011 alone. More 
than 2,200 Fire Departments and State Forestry Departments in at least 
32 States have received excess DoD equipment for use in firefighting 
activities. From fiscal year 2008 to fiscal year 2010, these States 
received more than $382 million worth of equipment, including more than 
5,927 vehicles and trailers. Other donations included:
---------------------------------------------------------------------------
    \9\ Original Acquisition Value.
---------------------------------------------------------------------------
  <bullet> Twenty-seven light armored vehicles (V-150s and V-300s), 
        worth $500,000 each, that went to 10 States (in 2007 and 2009).
  <bullet> Three C-12 aircraft, worth $4 million each, that went to 
        California's Department of Forestry and Fire Protection (in 
        2008).
  <bullet> Winches, hoists, and cranes; tents and tarps; guns up to .30 
        caliber; and field litters, worth approximately $638,000, that 
        went to DHS/Customs and Border Protection (CBP) (in 2010). In 
        addition, 34 snowmobiles to patrol the border, thereby saving 
        more than $150,000, also went to DHS/CBP (also in 2010).
  <bullet> Tactical vehicles and five helicopters, worth approximately 
        $5 million, that went to DHS/Immigration and Customs 
        Enforcement (ICE).
  <bullet> An excess DoD Mark II robot, originally valued at $55,000, 
        that went to the Ashland County Bomb Squad in Ohio.
  <bullet> Through a partnership with DHS, the Department of Energy 
        (DOE), and the Health Physics Society (the Homeland Defense 
        Equipment Reuse (HDER) Program), excess DoD radiological 
        detection instrumentation and other equipment, as well as no-
        cost training and long-term technical support, that went to 
        emergency responders.
                     equipment loan-lease programs
    DoD's equipment loan-lease program provides Federal, State, and 
local agencies access to valuable capabilities. These agencies then 
have an opportunity to use, evaluate, and experiment with these 
capabilities in return for feedback on their effectiveness in the 
field. For example, DoD's Robotics Loan Pool loaned robotic systems to 
public safety organizations. Currently, five robots are on loan in 
Massachusetts and Hawaii. Over the life of this program, more than 100 
Government organizations, mostly State and local agencies, and 22 
commercial entities participated in this program. In many cases, 
Government organizations used this loan program to enable bomb squads 
to meet their certification requirements. In general, commercial 
entities used this program to develop new payloads for use by the 
military and first responders. DoD's Night Vision Loan Pool provides 
State law enforcement agencies with a low-cost (i.e., $300 annually), 
low-maintenance alternative to purchasing night vision devices. 
Currently, approximately 1,231 night vision devices are on loan to 429 
agencies in 48 States.
                           expertise sharing
    By sharing DoD's expertise with our Federal, State, and local 
partners we help improve their capabilities. In return, DoD can readily 
leverage the expertise and experience of its partners to improve DoD's 
capabilities. The Hazardous Devices School (HDS), a Federal Bureau of 
Investigation facility, which is operated by the Army's Ordnance 
Munitions and Electronics Maintenance School at Redstone Arsenal, 
Alabama, trains Federal, State, and local bomb squads. Since 1971, HDS 
has trained and accredited thousands of technicians, including more 
than 50 new bomb squads since September 11, 2011. The Domestic 
Preparedness Equipment Technical Assistance Program (DPETAP), which is 
executed by the Army's Pine Bluff Arsenal, Arkansas, provides mobile 
teams to provide on-site technical assistance to first responders for 
selecting, operating, and maintaining radiological, chemical, and 
biological equipment. The Interoperable Communications Technical 
Assistance Program (ICTAP), which is executed by the Space and Naval 
Warfare Systems Center (SPAWAR) Pacific, has helped more than 75 States 
and metropolitan areas to develop and implement regional communications 
plans using the Communication Asset Survey and Mapping Tool (CASM). 
ICTAP addresses interoperability issues, including governance and 
planning, technical needs and solutions, and exercising and training.
                         dual-use technologies
    DoD research and development has led to the production of many 
items that are now routinely used by our Federal, State, and local 
partners. DoD works closely with its partners to leverage potential 
``dual-use technologies'' originally developed for military application 
for civilian applications. As an example, DoD assisted the U.S. Coast 
Guard in evaluating sensors and platforms that could enhance its 
ability to conduct wide area surveillance to detect, identify, and 
track vessels of interest. Likewise, in 2003, a Predator B Unmanned 
Aerial Vehicle (UAV), scheduled for future delivery to DoD, operated in 
support of DHS/ICE Operation SAFEGUARD, a joint humanitarian/law 
enforcement effort along the Southwest Border. Operation SAFEGUARD 
provided an opportunity for DoD to demonstrate UAV capabilities to 
border authorities and also served to highlight the policy, legal, and 
infrastructure issues that must be examined in tandem with technology 
development. These include challenges associated with the use of UAVs 
in controlled domestic airspace as well as the extensive infrastructure 
(e.g., communications, exploitation tools, and imagery analysts) 
required to process and exploit information collected by UAVs. In 
addition, in 2008, DoD developed and installed a fiber optic-based 
seismic acoustic sensor prototype system in the San Diego area. In 
2009, DHS purchased this system and continues to support its 
operational evaluation by the San Diego Tunnel Task Force. Also in 
2009, DoD supported DHS's proof-of-concept demonstration for an 
advanced ground penetrating radar technology for use in cross-border 
tunnel detection. The results of this demonstration warranted continued 
development and testing efforts in 2010 and 2011. Furthermore, DoD and 
DHS are cosponsoring a ``Tunnel Detection'' Joint Capability Technology 
Demonstration (JCTD). U.S. Northern Command is the DoD proponent for 
this demonstration, and as the technologies mature, they are expected 
to be fielded for use by DoD and DHS organizations at home and abroad.
    DoD's Counterterrorism Technical Support Office (CTTSO), which 
oversees the interagency Technical Support Working Group (TSWG) (85 
Federal agencies, including DHS, DOJ, DOE, and the Department of Health 
and Human Services, work together to research and develop, test and 
evaluate, and deliver combating terrorism capabilities to the National 
interagency community rapidly),\10\ is currently developing 
capabilities to detect, locate, monitor, and disrupt subterranean 
operations in semi-permissive and non-permissive environments to allow 
tactical forces to conduct operations and counter hostile and/or 
criminal networks. Current, CTTSO counter-tunnel projects of interest 
include:
---------------------------------------------------------------------------
    \10\ The bulk of TSWG core funding is provided by DoD. Additional 
funding is supplied by the Department of State, while other Federal 
departments and agencies share the costs of selected projects.
---------------------------------------------------------------------------
  <bullet> Portable Ground-Penetrating Radar.--Battery powered, man-
        portable, ruggedized system to detect subterranean structures 
        (tunnels, bunkers, and caches) to a minimum depth of 15 feet, 
        with antenna configuration to allow for operation by one person 
        and be employable in any terrain.
  <bullet> Improved Underground Communications.--A planned proof-of-
        concept involving multiple technology demonstrations, which is 
        currently investigating if further funding is warranted.
  <bullet> Remote Imaging and Detection of Underground Anomalies.--A 
        proven prototype that implements laser technology to identify 
        buried objects (e.g., caches and improvised explosive devices). 
        In fiscal year 2011, development of this prototype was expanded 
        to determine if the technology is capable of detecting voids.
  <bullet> Seismic-Acoustic Sensor Kit.--A mobile seismic acoustic 
        sensor system designed to detect underground activity with the 
        intent of easy deployment and operation in a temporary 
        environment (though permanent installation is also an option).
                               conclusion
    At the signing of the Declaration of Independence, Benjamin 
Franklin is reported to have said, ``We must, indeed, all hang 
together, or assuredly we shall all hang separately.'' Similarly, as 
we--Federal, State, and local government agencies, the public sector 
and the private sector, non-governmental organizations, and individual 
citizens--share the burden of the threats challenging our Nation, so 
too must we share our strengths and capabilities to meet these 
challenges more effectively. If we do not, assuredly we shall all hang 
separately.
    Chairman Miller, Ranking Member Cuellar, distinguished Members of 
the subcommittee: I commend you for your leadership, continued 
interest, efforts, and support in DoD's defense of the United States 
and support to civil authorities here at home. I look forward to 
working with you in the future.

    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes Mr. Borkowski for his 
testimony.

STATEMENT OF MARK S. BORKOWSKI, ASSISTANT COMMISSIONER, OFFICE 
  OF TECHNOLOGY INNOVATION AND ACQUISITION, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you.
    Chairwoman Miller, Ranking Member Cuellar, Ranking Member 
Thompson, distinguished Members of the committee, it is a 
pleasure to be here before you again to talk about CBP's plans 
for technology and how we interact with DoD. My two colleagues 
and I have submitted joint written testimony, but we will each 
have brief opening remarks from our own perspective on this 
issue.
    If you do look at that written technology you will see that 
what we did is we tried to cast a picture to show that we have 
had a long and extensive and very broad relationship with the 
Department of Defense, looking at a whole range of 
technologies, and ability to evaluate them, and operational 
concepts. In fact, from that relationship we have derived our 
plan going forward--the plan that replaced--I am not so sure I 
am prepared to say succeeds--replaced SBInet. Because that plan 
itself is a plan that is based on existing technology, many 
elements of which come from DoD.
    Elements of that are, in fact, systems that Congressman 
Cuellar, Congressman McCaul, and I went and looked and in 
Laredo in November. So I think it is important to start with 
that. This is a different technology approach.
    When we talk about things like the GAO report, where we are 
contrasted with SBInet, I would just call the committee's 
attention to the fact that another contrast might be with the 
way we bought remote video surveillance systems for the 
Northern Border. Didn't hear a lot of problems with that 
because we changed our method of buying them, and that method 
we applied to the Northern Border is the method we are applying 
now to the Southern Border.
    Also, interestingly enough, what we bought on the Northern 
Border are systems we are buying and estimated the cost for on 
the Southern Border. So while it is true that we need to be 
attentive to the risks in the plan going forward, it is a much 
different plan, and it is a plan that is based on existing 
available technologies. Even the IFT--the Integrated Fixed 
Towers, which are one element of that plan--is not SBInet. It 
is not a successor. It is not a development program. It is a 
program that is based on available systems, including systems 
that are available in the Department of Defense today.
    So our whole approach to the initial deployment of 
technology on the border is based very much with the kinds of 
concepts that I think this committee is interested in, and we 
will continue to do that.
    It is interesting, because I have had a little trouble 
explaining this, and perhaps I am not as eloquent, perhaps, as 
General Schwartz, but I was reminded of something that General 
Schwartz, the chief of staff of the Air Force, had said. I 
thought, if I may, I--because this is our view--I would share 
this. He said, although historically we have had more trade 
space to advance the state-of-the-art we now must be more 
calibrated in pushing the technological envelope. We must be 
ruthlessly honest and disciplined when our operational 
requirements allow for more modest, less exquisite, and higher 
confidence acquisition programs.
    He goes on to say, Government must ensure stable 
requirements and reliable funding streams, while industry must 
bid realistically and resist offering to sell more than what is 
operationally required. In a time of robust funding we lost the 
ability to differentiate what is essential and what is nice to 
have.
    That is exactly where we are. So I think we and the 
Department of Defense also share a view of how best to proceed 
in getting focused on what we need, not what is the shiniest 
thing in the box. We are aware that many of those systems exist 
today from DoD.
    Going forward, there are systems that we are interested in, 
going forward. We have flexibility in our planning that will 
require additional evaluation and additional work, but it may 
be worth it. We continue to evaluate those, and we will hear 
more from the Department of Homeland Security's Science and 
Technology because we rely on them to help us in that regard.
    In my remaining minute I did--I think I have a remaining 
minute--I did want to address the GAO report briefly, and I 
will look forward to questions. But certainly when we look at 
the GAO report I have two views of it. One is, it is actually 
rather good. It is rather good in the sense that it identifies 
and confirms risks that we ourselves had identified and, 
frankly, believe we have managed.
    It is probably less good in setting context. As you can 
imagine, when you have a risk all kinds--there is a whole range 
of things that can happen, from nothing bad to tremendously 
bad, and the GAO report focuses on the range that is 
tremendously bad. I will tell you that we don't think that it 
is likely that we will be on that end of the risk.
    I will give you, for example, in terms of cost--we 
understood the issues that the GAO recognized in cost and we 
provided for that. While we maybe didn't measure the risk, we 
certainly did accommodate it, and to this point, what we are 
actually finding--keep your fingers crossed--but what we are 
actually finding is that the actual costs that we seem to be 
incurring are likely to be less than we identified in those 
rough order magnitude costs because we did accommodate the 
risk.
    So I will look forward to the questions. I do think that 
the GAO did a nice job of identifying risks, but I would say 
those were risks that we were aware of and we believe we have 
plans in place that will minimize the likelihood that getting 
that risk will get us to the far bad end of the spectrum.
    With that, I will look forward to your questions.
    [The joint prepared statement of Mr. Borkowski, Mr. Benda, 
and Mr. Tangora follows:]
Joint Prepared Statement of Mark S. Borkowski, Paul Benda, and Michael 
                                Tangora
                           November 15, 2011
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the committee, it is a privilege and an honor to appear 
before you today to discuss the Department of Homeland Security's (DHS) 
on-going collaboration with the Department of Defense (DoD) to secure 
our Nation's borders and particularly the role U.S. Customs and Border 
Protection's (CBP), the Science and Technology Directorate (S&T), and 
the U.S. Coast Guard (USCG) have played in such cooperative efforts. I 
am Mark Borkowski, Assistant Commissioner of CBP's Office of Technology 
Innovation and Acquisition (OTIA) and the CBP Component Acquisition 
Executive. I am pleased to offer this joint statement with my 
colleagues Paul Benda, Chief of Staff for DHS S&T and Director of the 
S&T Homeland Security Advanced Research Projects Agency (HSARPA), and 
Michael Tangora, Deputy Assistant Commandant for Acquisition in the 
U.S. Coast Guard.
    As America's front-line border agency, CBP's priority mission is to 
protect the American public while facilitating lawful travel and trade. 
To do this, CBP has deployed a multi-layered, risk-based approach to 
enhance the security of our borders while facilitating the flow of 
lawful people and goods entering the United States. This layered 
approach to security reduces our reliance on any single point or 
program that could be compromised. It also extends our zone of security 
outward, ensuring that our physical border is not the first or last 
line of defense, but one of many.
    Technology plays a critical role in this layered approach. My role, 
as assistant commissioner and CBP's component acquisition executive, is 
to ensure our technology efforts are mission-oriented and well-
integrated across agencies and Departments. To support us in our 
mission, we have developed extensive partnerships with DHS S&T and DoD.
            overview of cbp, dhs, s&t, and dod interactions
    CBP is one of many components within DHS that work with DoD on a 
regular basis. In many cases, CBP partners with DHS S&T and together we 
work with DoD to leverage their investments and experiences to help 
identify potential solutions for CBP programs. DHS S&T plays a key role 
in many CBP activities including funding, co-founding, and providing 
technical expertise to many of the projects discussed throughout this 
testimony.
    Together, CBP and S&T enjoy a close working relationship with our 
DoD counterparts. Many of the technologies CBP needs to support our 
officers and agents in the field have already been put into practice by 
DoD. There are many similarities, but also differences, between DoD and 
CBP missions and objectives. Through our history of close 
collaboration, we have been able to take advantage of what we have in 
common.
    There are also opportunities for us to further refine our 
partnership with DoD. We look forward to continuing to work closely 
with DoD to develop a comprehensive view of the opportunities and 
technologies we can leverage together, while keeping in mind the 
different missions, objectives, and needs for the two departments.
    As we look back over our extensive history and relationship with 
DoD, we have found four general types of collaboration. They are:
  <bullet> Joint Development and Demonstration;
  <bullet> Test Support;
  <bullet> Deployed Systems;
  <bullet> Joint Operations.
    The following examples are testament to the breadth and depth of 
our work with DoD. The examples are a snapshot in time; we find new 
opportunities every day. We look forward to continuing to build these 
relationships and seek new ones with those offices that have the 
technology and capability to help us perform our critical missions.
                  joint development and demonstration
    ``Development and Demonstration'' is the creation of a technology 
and the demonstration of the applicability of that technology in a 
particular mission setting. We often work with DoD to tailor already-
existing technology (originally designed for a DoD application) to 
CBP's mission. We also benefit from joint opportunities to evaluate 
potential future technologies. In some cases, we work with an 
acquisition command with specific expertise like the U.S. Army Night 
Vision and Electronic Sensors Directorate. In other instances, we work 
with an OSD organization such as Rapid Reaction Technology Office, an 
organization that coordinates across Service organizations. We also 
conduct cooperative demonstrations to assess DoD technology in a joint 
or CBP unique mission area. The examples listed below describe a 
variety of projects and concepts that have arisen through 
collaborations with DoD.
DoD Organization: OSD Rapid Reaction Technology Office (RRTO)
    Joint Effort.--Due to RRTO's extensive history of demonstrating 
technology for rapid deployment to the field, DHS has been able to 
leverage RRTO's efforts instead of creating new demonstrations. For 
example, knowledge we gained from RRTO research is currently informing 
our acquisition strategy for the sensor systems we will be deploying as 
part of our Arizona Technology Deployment Plan.
DoD Organization: Joint Project Manager Guardian (JPMG)
    Joint Effort.--Joint Program Manager Guardian acts as a 
clearinghouse for information about a wide range of technology systems, 
including Weapons of Mass Destruction (WMD) detection, tunnel 
detection, and monitoring technologies.
DoD Organization: U.S. Northern Command
    Joint Effort.--The Rapid Reaction Tunnel Detection (R2TD) Joint 
Capabilities Technology Demonstration (JCTD) is a DoD program to 
evaluate a readily available technology for tunnel detection. Working 
with Northern Command, we have been able to apply the system as a 
demonstrator for tunnel detection at the border as well as to collect 
data for DoD's purposes. The Border Tunnel Activity Detection System 
(BTADS), part of the R2TD initiative, is a multi-sensor system 
utilizing a combination of sensors and mobile equipment to detect 
general tunnel activity and find its specific location. The system has 
undergone extensive testing in the San Diego Sector and other locations 
within and outside the United States. We continue to use it while we 
complete our effectiveness evaluations. The result of those evaluations 
will also help inform the development of requirements for future tunnel 
detection projects.
DoD Organization: Defense Threat Reduction Agency (DTRA)
    Joint Effort.--Our experience with tunnel detection and unattended 
ground sensors has shown that it is critical to understand the 
geophysical characteristics of a particular area in order to design 
effective detection systems. This on-going project with DTRA is 
developing a detailed understanding of the subsurface geophysical 
characteristics and their effect on seismic, acoustic, and electro-
magnetic signal sources. The result of this effort will be a 3-D 
modeling program that will assist in the deployment and use of tunnel 
detection technologies.
DoD Organization: Combating Terrorism Technical Support Office (CTTSO), 
        Technical Support Working Group (TSWG)
    Joint Effort.--This is another on-going project focused on tunnel 
detection. It will include evaluations of various technologies 
including a portable seismic acoustic sensor kit, advanced ground 
penetrating radar, thermal cameras, robot platforms for remote illicit 
tunnel inspection, and 360-degree video systems.
DoD Organization: Army Communications Electronic Research Development 
        and Engineering Center (CERDEC)
    Joint Effort.--Between 2009 and into the summer of 2011, DHS and 
CERDEC (along with several other supporting DoD organizations) 
evaluated the Vehicle and Dismount Exploitation Radar (VaDER) on both 
fixed-wing and DHS's Predator drone aircraft. VaDER offers the 
potential for an affordable sensor package that can detect small moving 
objects on the ground. Its operation on the DHS Predator offered proof-
of-concept for both DoD and DHS. In addition, during the evaluation, 
VaDER successfully supported the detection and interdiction of illicit 
border incursions. The results to date have demonstrated the 
significant potential of VaDER as applied to CBP's mission.
DoD Organization: Army Research Lab, Acoustic Signal Processing Branch
    Joint Effort.--Unattended Ground Sensors (UGS) have long been a 
staple of our border surveillance technology. Understanding how and 
where they work, and what we can do to improve their performance, has 
value to both DoD and DHS. We have worked with this laboratory since 
2006 to expand our understanding and continue to gain useful insights 
as a result of this collaboration.
DoD Organization: Naval Research Lab (NRL)
    Joint Effort.--Since 2005, we have collaborated with NRL on 
algorithm development to distinguish tripwire activity so that we are 
able to differentiate among human, animals, and vehicle movement.
DoD Organization: Defense Intelligence Agency (DIA)
    Joint Effort.--This on-going collaboration with the Defense 
Intelligence Agency will develop sensor technology capable of 
distinguishing between human, animal and vehicle traffic.
DoD Organization: Sandia National Lab
    Joint Effort.--Sandia is a U.S. Department of Energy (DOE) 
laboratory with expertise in Non-Intrusive Inspection (NII) technology. 
NII systems help us detect hidden contraband quickly and effectively. 
Both DHS and DoD use Sandia's expertise to support research, 
development, and evaluation of the Non-Intrusive Inspection (NII) 
technology and detector designs.
DoD Organization: OSD Rapid Reaction Technology Office (RRTO)
    Joint Effort.--The Thunderstorm program was established to test 
evolving intelligence, surveillance, and reconnaissance (ISR) 
architectures, emerging technologies, and transformational concepts. 
The first generation testing of Thunderstorm included Border Patrol 
using DoD sensor data to provide a more complete operational picture in 
Southern Arizona. Future planning will include demonstration of two-way 
communication capability to provide a common operational picture (and 
improved, integrated command and control) among multiple agencies.
DoD Organization: Army Communications--Electronics Research and 
        Development Center--U.S. Army Night Vision and Electronic 
        Sensors Directorate (NVESD)
    Joint Effort.--Radars are becoming increasingly important elements 
of our border security technology suite. There are many types of radars 
available so characterization of them in our border environment helps 
us to select among them. This collaboration is assisting with 
performance analysis and test and evaluation of radars and their 
associated signal processing suite, and the integration and test and 
evaluation of imagery sensors to include assessment of image 
performance characteristics and life-cycle costs.
DoD Organization: Institute for Defense Analyses (an OSD Federally-
        Funded Research and Development Center)
    Joint Effort.--We depend on well-established and recognized experts 
to advise us about existing and potential technologies for application 
to our missions. Since 2007, the Institute for Defense Analyses has 
provided subject matter expertise for market research, radar 
recommendations, test site and test methodology planning, test support 
and data analysis assistance on improving detection and tracking of 
ground surveillance radars in challenging border environments.
DoD Organization: U.S. Naval Air Systems Command
    Joint Effort.--Part of any technology deployment plan should be a 
strong and effective logistics support strategy. DHS and CBP have 
limited expertise in this area, so we have solicited assistance from 
DoD experts. This effort is developing logistics and sustainment plans 
and processes for SBInet Block 1 and other CBP acquisitions.
DoD Organization: U.S. Army Training and Doctrine Command
    Joint Effort.--Many DoD organizations have tools and extensive 
experience in Mission Analysis and Operations Research, which CBP has 
leveraged to augment our own capabilities. Together, this collaboration 
completed a study to determine the sensor mix that maximizes the 
probability and efficiency of detecting existing tunnels and tunnel 
construction activity on the U.S. border according to geographic 
location, infrastructure, and historical data. Also addressed in the 
study was a business model for illegal cross-border tunnels based on 
production rates of interceded narcotic quantities.
DoD Organization: U.S. Northern Command, Department of State, 
        Government of Mexico
    Joint Effort.--We have an on-going effort to develop a Cross-Border 
Secure Communications Network (CBSCN) Project with Mexico. This project 
is designed to enhance international cooperation and interoperability, 
which in turn should enhance our overall border security. This 
collaboration supports the installation of microwave equipment at 10 
city pairs along the U.S.-Mexico border for the purpose of addressing 
the need for a long-term solution to cross-border communications.
DoD Organization: U.S. Air Force (USAF)--Edwards Air Force Base (AFB), 
        in partnership with USAF Test Pilot School
    Joint Effort.--Starting in 2010, the two agencies worked together 
on a joint demonstration to determine the effectiveness of current CBP 
air assets to detect and track small, dark aircraft. The demonstration 
showed how CBP air assets could increase their ability to detect these 
aircraft by changing their patrol strategies.
DoD Organization: USAF Edwards AFB, in partnership with USAF Test Pilot 
        School
    Joint Effort.--This project is focused on developing innovative 
technologies that can detect and track small dark aircraft along the 
Northwest Border of the United States. To date, exercises/testing have/
has identified three promising, low-cost sensor technologies that can 
detect these aircraft at significant standoff ranges.
DoD Organization: U.S. Northern Command
    Joint Effort.--Low-flying aircraft are a concern for border 
security because they are difficult to detect with existing radars. In 
this collaboration, we studied the use of Sentinel DoD radars during 
demonstrations along the Northern Border to evaluate their ability to 
detect low-flying aircraft.
DoD Organization: Joint Interagency Task Force, South (JIATF-S), U.S. 
        Pacific Command, and U.S. Coast Guard (USCG) Maritime 
        Intelligence Fusion Center, Pacific
    Joint Effort.--CBP's mission includes requirements to detect small 
items of interest in large expanses of oceans--for example, to detect 
potential drug smugglers. The Tipsheet Review and Correlation EnhanceR 
(TRACER) is a software application that enables an intelligence imagery 
analyst to quickly find and characterize small maritime vessels in an 
image showing over 1,000 square miles of ocean. The value of TRACER 
stems from the speed with which it finds small vessels in large areas 
of ocean and shares critical information about those vessels.
DoD Organization: Naval Research Lab and Naval Systems Warfare Center 
        (NSWC)
    Joint Effort.--The Small Vessel Tracking system consists of a 
system to fuse and present multiple vessel information sources to law 
enforcement operators, through a laptop, into real-time tracking and 
mobile field kit software. This effort also evaluated RFID tags for 
tracking small vessels in a port/coastal environment. The core 
technology was developed by DoD to assist in mission planning for 
interdiction efforts. NSWC program management continues to provide 
support and technical expertise for the development of these sensor and 
surveillance technologies; a Small Business Innovation Research (SBIR) 
effort.
DoD Organization: Naval Research Lab (NRL)
    Joint Effort.--This on-going effort began in 2010. Shipboard 
Automated Automatic Identification System (AIS) Radar Contact Reporting 
(SARCR) is a NRL Rapid Prototype System developed to deploy on-board 
U.S.-flagged commercial vessels, USCG costal patrol boats, and select 
naval support vessels with a feed to DoD and DHS operational components 
including CBP. The purpose of the SARCR System is to capture and relay 
vessel radar and AIS data from the ship to a land-based central 
processing center for distribution to DoD/DHS operating agencies. SARCR 
addresses the DHS maritime capability gap associated with wide-area 
surveillance against illegal traffic which includes GO FAST boats, 
chugs, yolas, and potentially self-propelled semi-submersibles (SPSS). 
These non-radiating targets are often referred to as ``dark'' targets 
and separation of AIS contacts from non-radiating targets is the first 
level of filtering in determining suspicious behavior.
DoD Organization: Naval Research Lab and USAF Air Combat Command (ACC)
    Joint Effort.--This collaboration conducted over the past year was 
a demonstration of Tethered Aerostat System Adjunct Radar Processor 
(TARP) by leveraging the existing USAF ACC Tethered Aerostat Radar 
System (TARS) radar surveillance capability in the region (optimized to 
detect low, slow-flying aircraft) to provide enhanced maritime surface 
coverage and tracking capability. DHS adapted a new, highly-capable 
maritime radar processor to function with L-band radar designed 
specifically for detecting low- and slow-flying aircraft and making 
that surface contact data available to the appropriate action agency 
via the web-based radar display.
DoD Organization: Naval Research Lab and NSWC
    Joint Effort.--The Modular Sensor System/Improved Imaging 
Technology Project is a sensor and processing suite used for persistent 
wide-area surveillance and target tracking for port, harbor, and 
coastal environments. The Improved Imaging Technology (IIT) camera was 
developed over the last year at NRL as an Office of Naval Research 
(ONR) Future Naval Capability (FNC) program. This project integrated 
the camera system into an established port/coastal surveillance system 
used by the USCG, but also has applicability to the CBP maritime 
mission area.
DoD Organization: Naval Research Lab (NRL)
    Joint Effort.--This on-going effort is focused on leveraging 
existing weather radars for ocean surveillance. The National High 
Frequency (HF) Radar Network, component of U.S. Integrated Ocean 
Observing System (IOOS) led by NOAA, provides beyond the horizon 
surface current data. The HF radars are also capable of detecting the 
speed and location of vessels at sea, using algorithms developed by 
Rutgers. HF radar are currently monitoring approaches to New York 
Harbor.
DoD Organization: Naval Underwater Warfare Center Newport (NUWC 
        Newport)
    Joint Effort.--Between 2008 and 2010, The NUWC Newport conducted a 
test and evaluation of an improved radar capability to enhance ocean 
surveillance. The effort focused on the potential applicability and 
effectiveness of low-cost, commercially available radars to the 
detection and tracking of large and small vessels in port and coastal 
regions.
                              test support
    The Department of Defense has extensive test facilities, test 
ranges, and subject matter experts that DHS can use for checkout, 
demonstration, and operational evaluation of technology solutions and 
tactics. Use of these DoD capabilities offers a ``try-before-buy'' 
opportunity that reduces the risk of technology acquisition and 
increases the likelihood that selected technologies will be 
operationally useful. The DoD has not only offered testing environments 
for our new assets, but also provided experts to conduct the tests. The 
use of DoD facilities for testing purposes will continue to support DHS 
efforts to test and accredit technology as the following examples 
demonstrate.
DoD Organization: U.S. Army Test and Evaluation Command (ATEC)
    Joint Effort.--DHS solicited support from ATEC for the structured, 
quantitative, and comprehensive operational test and evaluation of our 
SBInet Block 1 effort. ATEC conducted the test in late 2010, performed 
data analysis, summarized test results, and provided recommendations 
for improved system effectiveness and suitability. In the process, DHS 
also gained valuable experience in performing this type of robust 
operational test and evaluation.
DoD Organization: Joint Technology Assessment Activity (JTAA), Naval 
        Systems Warfare Center (NSWC)
    Joint Effort.--DHS has a continuing need for support to conduct 
operational test and evaluation activities. NSWC signed a 5-year 
Interagency Agreement that will provide Operational Test Agent support 
so that we can better ensure our technology provides value to our law 
enforcement personnel.
DoD Organization: Commander Operational Test and Evaluation Force 
        (COMOPTEVFOR)
    Joint Effort.--As we deploy the Integrated Fixed Towers (one of the 
systems within the technology portfolio selected as part of the new 
Arizona Technology Deployment Plan), we have asked and received support 
from COMOPTEVFOR. COMPOMTEVFOR will serve as our formal ``Operational 
Test Agent.''
DoD Organization.--U.S. Army's Joint Interoperability Test Command 
        (JITC)
    Joint Effort.--We have a strong interest in maintaining awareness 
of the capabilities and availabilities of sensor systems. This 
awareness, in turn, advises our acquisition strategies and plans for 
technology along the border. The JITC has provided facilities, ranges, 
and personnel for several radar tests to characterize and compare 
systems for their potential effectiveness along the border.
DoD Organization: Naval Facilities Engineering Support Center, Space 
        and Naval Warfare (SPAWAR) Systems Center Pacific
    Joint Effort.--As part of our approach to secure the maritime 
environment, we are interested in capabilities to detect small, 
underwater targets. The Center supported test and evaluation of a Low-
Cost Underwater Swimmer/Diver Detection Systems [a Small Business 
Innovative Research (SBIR) project] and provided field support for 
testing of this technology and marine engineering technical support 
including analysis and recommendations.
                            deployed systems
    Many of the systems DHS currently uses for surveillance and 
situational awareness along the border come directly from DoD 
development and heritage. These systems include:
  <bullet> Predator Drone--MQ-9
  <bullet> Blackhawk--UH-60
  <bullet> Orion P-3
  <bullet> KingAir--Beechcraft
  <bullet> Mobile Surveillance System (MSS)
  <bullet> Agent Portable Sensor System (APSS)
  <bullet> Remote Video Surveillance System (legacy system)
  <bullet> Unattended Ground Sensors (Monitron, McQ Omnisense)
  <bullet> Night Vision Camera (FLIR Night Ranger)
  <bullet> SBInet Block 1 Laser Illuminator
  <bullet> SBInet Block 1 Radar
    Other examples include:
DoD Organization: U.S. Navy Space and Naval Warfare Systems Command 
        (SPAWAR)
    Joint Effort.--The Advanced Wireless System is an upgrade of our 
CBP communications infrastructure to correct obsolescence and shift 
frequencies. SPAWAR supports us by providing project management 
expertise and support, especially for tower construction.
DoD Organization: SPAWAR
    Joint Effort.--SPAWAR and CBP have entered an Interagency Agreement 
with the Northern Border for the Law Enforcement Technical Collection 
project.
DoD Organization: Biometric Identification Management Agency (BIMA)
    Joint Effort.--This collaboration developed the Automated Biometric 
Identification System (ABIS)--an application to process and identify 
all apprehended subjects. As part of normal processing, the 
fingerprints are searched against the FBI and DHS's biometric 
databases. The Border Patrol now has the ability to automatically 
search the fingerprints and facial images against the DoD's ABIS 
database, which has resulted in positive identifications of apprehended 
subjects.
DoD Organization: U.S. Army Night Vision and Electronic Sensors 
        Directorate
    Joint Effort.--DoD developed the Agent Portable Sensor System 
(APSS) and demonstrated its effectiveness during collaborative 
operations along the border. Based on this collaboration, DHS selected 
the APSS systems as part of the technology portfolio for the new 
Arizona Technology Deployment Plan. The Directorate also supported DHS 
by providing an Army contract for DHS procurements, which accelerated 
deployment of this capability to the border.
                            joint operations
    In addition to efforts that support development, evaluation, and 
deployment of technology systems, DHS collaborates with DoD and other 
agencies in direct support of the border security mission. DoD and 
other agency resources and personnel operate alongside our DHS 
personnel, providing expertise and support that increase our mission 
effectiveness. Examples include:
DoD Organization: Joint Task Force North (JTFN)
    Joint Effort.--DHS has an extensive history of operational 
collaboration with JTFN. This collaboration provides a wide variety of 
capabilities in operations, engineering, training, intelligence, and 
application of technology. Some recent examples include:
  <bullet> Operations.--JTFN has aided CBP in operations dealing with 
        ground sensors, radar, aviation FLIR, and air reconnaissance.
  <bullet> Engineering.--JTFN has supported CBP in construction of 
        border tactical infrastructure such as roads, lights, bridges, 
        and barriers.
  <bullet> Training.--Mobile training teams have provided 92 classroom 
        instruction missions that have covered planning, intelligence 
        and field craft, and survival.
  <bullet> Intelligence.--JTFN has provided support in the form of 
        intelligence analysts, mapping, and imagery.
  <bullet> Technology.--JTFN has supported 10 missions relating to 
        tunnel detection. Currently, 62 JTFN support missions are 
        tentatively planned for execution in fiscal year 2012.
Other Organization: Alliance to Combat Transnational Threats (ACTT)
    Joint Effort.--This is an enforcement collaboration which leverages 
the capabilities and resources of more than 60 Federal, State, local, 
and Tribal agencies in Arizona, and the Mexican government, to combat 
individuals and criminal organizations that pose a threat to 
communities on either side of the border. This collaboration has 
resulted in the seizure of more than 2.2 million pounds of marijuana, 
8,200 pounds of cocaine, and 2,700 pounds of methamphetamine; the 
seizure of more than $18 million in undeclared U.S. currency and 343 
weapons; over 16,000 aliens denied entry to the United States at 
Arizona ports of entry due to criminal background or other 
disqualifying factors; and approximately 342,000 apprehensions between 
ports of entry.
DoD/Other Organization: DHS, DoD, and DOJ
    Joint Effort.--Within the El Paso Intelligence Center, the DHS 
Office of Intelligence and Analysis established the Border Intelligence 
Fusion Section (BIFS) as a collaborative effort among DHS, DOJ, and 
DoD, which enables the integration and synthesis of all available 
Southwest Border intelligence from Federal, State, local, and Tribal 
partners. The result is a common intelligence picture that supports 
enforcement activities on the Southwest Border.
DoD Organization: DoD Central Command (CENTCOM)
    Joint Effort.--Where DoD and DHS have a shared interest in Port 
Security, we can combine our resources to increase our effectiveness. 
For example, in 2008 CBP and CENTCOM entered an agreement to scan all 
U.S.-bound DoD containers at Port Shuaiba, Kuwait prior to landing in 
the United States.
DoD Organization: U.S. Northern Command and JTFN
    Joint Effort.--CBP recognizes that we can increase our mission 
effectiveness by better operational integration among our front-line 
law enforcement components. While the concept is relatively new to us, 
DoD has extensive experience in designing and leveraging joint, multi-
service capabilities. This collaboration has provided CBP's Joint 
Operations Directorate (JOD) Joint Field Command (JFC) DoD's experience 
with unification efforts to ensure CBP has a joint and integrated 
approach to border security, commercial enforcement, and trade 
facilitation missions in the Arizona area of responsibility. As a 
result of working together, CBP has benefited with assistance in 
processes, procedures, technology solutions, and received support.
DoD Organization: U.S. Navy Survival, Evasion, Resistance, and Escape 
        (SERE)
    Joint Effort.--Conducted intermittently since 2009 and continuing 
today, this effort has provided personnel of the Rangeley Station in 
Houlton Sector with cold weather survival training and detection and 
interdiction of Special Interest Targets using Advance Evasive Tactics 
training.
DoD Organization: U.S. Southern Command and JIATF-S
    Joint Effort.--The groups have worked closely with the Homeland 
Security Task Force--Southeast (HSTF-SE) in coordinating multi-
component/multi-agency prevention of potential or full-scale Caribbean 
mass migration, achieved through supporting criminal prosecutions and 
maintaining an active air, land, and sea presence.
Other Organization: JTFN, New York and Vermont National Guard
    Joint Effort.--The first of three operations, Operation Maple Guard 
I (conducted in 2008), combined CBP and DoD's assets in a concentrated 
interdiction effort. Ground-based radar sensors were deployed at two 
locations within Border Patrol's Swanton Sector in order to gather 
intelligence on aircraft incursions. Interdiction aircraft and crews 
were deployed as a means of apprehending any identified incursions.
Other Organization: Royal Canadian Mounted Police (RCMP)
    Joint Effort.--Operation Maple Guard II (conducted in 2008) 
supported CBP in an initiative aimed at identifying, limiting, and 
disrupting the ability of terrorists, traffickers, and immigration law 
violators to smuggle in the Swanton Sector area of responsibility using 
low-flying non-commercial aircraft.
Other Organization: RCMP, JTFN, Vermont National Guard and State Police
    Joint Effort.--Operation Maple Guard III (conducted in 2010) 
facilitated collaboration and synchronization of assets from Canada, 
DoD, and CBP assets. Ground-based radar was deployed at 5 locations to 
gather intelligence on aircraft incursions. Interdiction aircraft and 
crews were on stand-by as a means of apprehending the identified 
incursions.
Other Organization: RCMP, Canadian Armed Forces, and the Canadian 
        Network Operation Center (NOC)
    Joint Effort.--This collaboration combined CBP and Canadian assets 
in a concentrated interdiction effort. A ground-based radar sensor was 
deployed in Canada in order to gather intelligence on aircraft 
incursions. Interdiction aircraft and crews were deployed as a means of 
apprehending any identified incursions.
Other Organization: DoD and National Guard
    Joint Effort.--This collaboration provided assets and sensors 
towards Operation Southeast Watch, a multi-agency coordination effort 
to detect and interdict suspect targets of interests seeking to 
penetrate the border of the United States.
Other Organization: Washington National Guard Counter Drug Task Force 
        (CDTF) and the Washington Air Guard CDTF
    Joint Effort.--This collaboration, conducted between 2007 and 2010, 
provided additional personnel and deployed the DoD Beechcraft ``Big 
Crow'' to Spokane Sector, greatly enhancing the Sector's situational 
awareness and overall detection capabilities.
Other Organization: JTFN, Northeast Counterdrug Training Center (NCTC), 
        and Wisconsin National Guard
    Joint Effort.--As a result of working together, DHS received 
training courses during fiscal year 2011 including courses in Interview 
and Interrogation, Intelligence and Link Analysis, and Intelligence and 
Preparation of the Operational Environment.
Other Organization: Vermont National Guard Civil Support Team (CST)
    Joint Effort.--In 2011, the CST provided training to Border Patrol 
Agents stationed in Vermont, as well as local law enforcement agents. 
Courses covered WMD awareness, Officer Safety, Basic Combat Medic, and 
CST Awareness and Capabilities.
Other Organization: California National Guard (CALGUARD)
    Joint Effort.--CALGUARD supports the engineering missions of Border 
Patrol's San Diego Sector. They have supported the construction of 
border tactical infrastructure and facilities, such as drainage 
structure installation, landing mat fence, vehicle maintenance 
facility, two heavy equipment loading docks, and maintenance on over 90 
miles of border road. Between 2006 and 2010, CALGUARD conducted 26 
missions with us.
Other Organization: National Guard
    Joint Effort.--DHS (including CBP) and the various elements of the 
National Guard often collaborate in responding to natural disasters. As 
one recent example, the North Dakota Army National Guard provided 
mutual support and engagement response to natural disasters in North 
Dakota.
DoD Organization: Army National Guard 1-188th Air Defense Artillery 
        Battalion (North Dakota)
    Joint Effort.--The battalion provided support through the use of 
their facilities. There is potential for expansion into an operational 
role if the unit's Avenger GBASR is viable and utilized for short-term 
border security missions.
Other Organization: Minnesota Air National Guard
    Joint Effort.--This collaboration provided an established 
operational intelligence-sharing environment between the Duluth Border 
Patrol Station and the 148th Fighter Wing. Duluth Station provides law 
enforcement support to wing Security Forces conducting immigration and 
criminal record checks for entrance via the Duluth International 
Airport. This venture has led to the arrest of undocumented aliens and 
one U.S. Citizen on an extraditable warrant.
Other Organization: Maine Army National Guard (ARNG)
    Joint Effort.--Between 2006 and 2007, the Maine ARNG Counterdrug 
Program aircraft supported the sector's counterdrug operations with 
aerial observation, interagency communications, and other capabilities 
using rotary-wing assets.
Other Organization: Puerto Rican National Guard
    Joint Effort.--The Puerto Rican National Guard assigned a radio 
technician to Border Patrol's Ramey Sector. They have supported 
Operation Southeast Watch (2009) in eastern Puerto Rico with an Athena 
maritime radar platform, and Operation Island Hopper III (2011). 
Additionally, they have provided sniper training and use of their 
firing range to BORTAC agents.
                 overview of uscg and dod interactions
    The Coast Guard has long partnered with the Department of Defense, 
the U.S. Navy and the other military services to develop joint systems 
and capabilities for its cutters, aircraft, and information and 
communications systems. These partnerships are vital to the Coast 
Guard's ability to meet its defense readiness mission requirements and 
deploy in support of Combatant Commanders. In addition, the Coast Guard 
is working with other DHS agencies to develop assets and capabilities 
that have applications across shared areas of responsibility such as 
border security and other law enforcement operations. In order to 
support these partnerships, the Coast Guard employs Coast Guard 
liaisons in the Department of Defense and other partner organizations.
    The purpose of the Coast Guard's Research, Development, Test and 
Evaluation (RDT&E) Program is to support Coast Guard operational, 
regulatory, and acquisition activities by leveraging innovative 
scientific and technological solutions. The primary organization that 
performs RDT&E in support of Coast Guard programs is the Research and 
Development Center (RDC), located in New London, Connecticut. The Coast 
Guard also works in close cooperation with the other military services 
and DHS. These partnerships are providing the Coast Guard with 
additional capabilities to meet its RDT&E needs.
                               conclusion
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, we thank you for this opportunity to 
testify about the work of U.S. Customs and Border Protection and the 
U.S. Coast Guard and our collaboration with DoD--across nearly 40 
agencies and organizations--to help secure our borders.
    We look forward to finding new ways to collaborate in the coming 
months and years. CBP and the USCG recognize the importance of 
eliminating redundancies and increasing efficiency within the 
Government, and collaboration is paramount to our overall success. The 
complexity and shared interests of the Northern, Southern, and Coastal 
Borders have spurred many long-standing partnerships and such 
initiatives strengthen manpower, technology, and intelligence.
    We look forward to answering your questions at this time.

    Mrs. Miller. Thank you.
    The Chairwoman now recognizes Dr. Cox, for his testimony.

   STATEMENT OF ADAM COX, DEPUTY DIRECTOR (ACTING), HOMELAND 
SECURITY ADVANCED RESEARCH PROJECTS AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Cox. Thank you.
    Good morning, Chairman Miller, Ranking Member Cuellar, 
Ranking Member Thompson, and the rest of the distinguished 
Members of the committee. The director, of course, regrets he 
couldn't be here today as he is celebrating the birth of his 
first child, Quinn Isabella Benda, who was born yesterday 
morning.
    As you know, S&T strives to strengthen American security 
and resiliency by providing innovative technology solutions and 
knowledge products to the homeland security enterprise. HSARPA 
is the primary R&D entity within S&T and it includes six 
technical divisions, one of which is our borders and maritime 
division, whose primary focus is the technology needs of CBP, 
the Coast Guard, and ICE in their missions to secure our border 
at and between the ports of entry.
    I appreciate the opportunity to appear today before you, 
and I would like to use the remainder of my time to quickly 
cover three topics: Our close working relationship with CBP's 
Office of Technology Innovation and Acquisition, the formal 
mechanisms with which we coordinate R&D and collaborate with 
DoD, and why transitioning technology from the battlefield to 
the border is not simply plug-and-play.
    The collaboration and interaction we have at S&T with OTIA 
is strong and getting stronger. We are both young, maturing 
organizations and we are building upon the strong working 
relationship S&T has enjoyed and established with CBP over the 
last 8 years.
    First, S&T has established a permanent liaison position 
within OTIA. This person currently serves as the director of 
technology management and is responsible for building the CBP 
technology roadmap that will drive the future S&T-OTIA R&D 
activities.
    We also co-fund and collaborate on many projects across the 
TRL spectrum. We share funding, resources, and subject matter 
expertise.
    Finally, we are establishing a formal set of roles and 
responsibilities for S&T and OTIA through an MOA on the 
evaluation of cost technology for use in CBP operations.
    Since the formation of DHS, S&T has always looked to DoD as 
a source of technology and to partner in R&D, and in this 
environment and this budget climate this is especially 
critical. We use the multiple formal interactions we have with 
R&D agencies across DoD to coordinate and collaborate to--
excuse me--our future plans and our R&D activities.
    The majority of these interactions are through interagency 
working groups and committees, where we have shared mission 
space, such as chem and bio defense, explosives detection, 
cybersecurity, and of course, physical security. Participation 
on these committees and the working groups ranges from our 
under secretary to individual program managers.
    For example, Under Secretary O'Toole co-chairs the National 
Science and Technology Council's Committee on Homeland and 
National Security, along with our counterparts at DoD and OSTP. 
Other examples include the DoD-DHS capability development 
working group, TSWG, and a laundry list of policy coordinating 
committees and working groups across those shared DoD-DHS 
mission spaces.
    DHS, and specifically CBP, rely on S&T to be the transition 
path for DoD technology. We evaluate DoD technologies and adapt 
them, when applicable, to homeland mission.
    While the interaction between DoD and DHS is robust in many 
areas and the terrains do look similar in Arizona and 
Afghanistan, the transition of technology from battlefield to 
border is not as simple as it looks. DHS is primarily a law 
enforcement and public safety agency, and our cops and needs 
can be very different from those of soldiers in a war zone.
    Then when technology from DoD does appear to be directly 
applicable there are several steps required to move that 
technology between the two agencies. DoD technologies are 
designed to work within DoD systems, within DoD operations, and 
DoD has the resources to dedicate support personnel to operate 
technology systems that DHS typically does not or is not able 
to afford.
    These differences all require additional development for 
DHS to deploy DoD technology. So as much as we would like to 
pick up those systems and--that appear to meet our technology 
needs we must ensure that we have done our due diligence and 
determined that they are effective for our mission and not only 
meet our needs but make operational and financial sense, as 
well.
    To that end, we are currently evaluating and leveraging 
multiple DoD technologies and R&D investments, including sensor 
management systems that we are using in the Port of L.A.-Long 
Beach and are soon to be deployed along the Northern Border; 
airborne border monitoring technologies; unmanned aerial 
systems; and detection technologies for semi-submersible 
maritime vessels. The list goes on, but uncertain budgets are 
also detrimental to our relationships with DoD. When we do 
collaborate on R&D projects they need to be able to depend on 
our investment commitments that we made.
    In closing, I would like to thank you, again, for the 
opportunity to join this conversation today. This is a critical 
topic. I believe that S&T is providing the much-needed 
technology development and evaluation services needed to 
leverage DoD and other interagency technologies and bring them 
to bear on the DHS mission.
    Thank you, and I am happy to answer any further questions.
    Mrs. Miller. Thank you very much, Dr. Cox.
    The Chairwoman now recognizes Mr. Tangora for his 
testimony.

 STATEMENT OF MICHAEL TANGORA, DEPUTY ASSISTANT COMMANDANT AND 
 DIRECTOR OF ACQUISITION SERVICES, UNITED STATES COAST GUARD, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Tangora. Chairman Miller, Ranking Member Cuellar, 
Members of the subcommittee, thank you for the opportunity to 
discuss the Coast Guard's close relationship with the 
Department of Defense and our on-going utilization of DoD's 
capabilities and programs in support of Coast Guard acquisition 
and research and development.
    The Coast Guard operates at all times as both an armed 
force and a component of Department of Homeland Security. Our 
statutory authorities under Titles 10 and 14 provide the Coast 
Guard with extensive security, law enforcement, and regulatory 
responsibilities throughout the maritime domain.
    The Coast Guard has developed strategies to meet its 
mission requirements, including arrangements with the other 
military services in support of our acquisition projects. 
Additionally, our R&D program provides critical support across 
the Coast Guard's unique mission set.
    The Coast Guard's Acquisition Directorate, where our 
research and development efforts are managed, is addressing its 
mission requirements through a multi-billion dollar 
recapitalization of Coast Guard's cutters, boats, aircraft, and 
command-and-control systems. In the process of carrying out 
more than 20 major and non-major acquisition programs we are 
using a wide variety of organic and external resources to 
provide oversight and assistance at all points throughout the 
acquisition life-cycle of our projects.
    In the past 5 years we have entered into 62 different 
interagency agreements with DoD activities, and nine with our 
partners in Department of Homeland Security. These agreements 
facilitate development, testing, evaluation, and certification 
of Coast Guard assets. These partnerships are an integral 
component of our strategy to establish effective governance and 
cost efficiency over all aspects of our acquisition programs.
    In addition to our agreements and memoranda of 
understanding the Coast Guard has placed liaison officers 
throughout the DHS and DoD enterprises. Our liaison officers 
provide the Coast Guard with information on new and on-going 
acquisition and research and development initiatives.
    We use this information to determine whether or not the 
Coast Guard has equities that can be capitalized, and if they 
are identified early enough, whether we can work with DoD and 
DHS activities to tailor the research initiative to address the 
specific Coast Guard requirement. Leveraging DoD research and 
development programs has enabled the Coast Guard to assess 
technologies for potential applicability for a fraction of the 
cost that a Coast Guard-unique R&D effort would entail.
    Coast Guard liaison officers are currently placed in 
strategic locations, including the Pentagon, DHS Science and 
Technology Directorate, Customs and Border Protection, the 
Unified Combatant Commands, U.S. Navy System Commands, and 
others. These liaisons officers have had a significant and 
positive benefit to the Coast Guard.
    In addition to our extensive engagement with DoD research 
and development programs the Coast Guard maintains an internal 
R&D program as part of the Acquisition Directorate. The program 
directly supports Coast Guard's specific needs across its full 
range of operational, regulatory, and acquisition activities. 
Our R&D projects are designed to minimize risk and maximize 
mission effectiveness across the Coast Guard activities by 
leveraging and applying innovative, scientific, and 
technological solutions.
    One such partnership with the Office of Naval Research has 
resulted in the development of numerous mission-enabling 
technologies, including running gear entanglement systems 
designed to foul and ultimately stop non-compliant vessels. 
Through our collective efforts we are effectively meeting our 
requirements for continued development of enhanced technologies 
and capabilities.
    Our recent research and development efforts build on the 
long-standing relationships and partnerships that we have with 
our fellow sea service, the U.S. Navy, and other military 
services to develop joint systems and capabilities for Coast 
Guard platforms to maintain readiness in the event that the 
Coast Guard is required to operate jointly with or under the 
direction of the U.S. Navy.
    We continue to partner with the Navy to install common 
sensors, weapons, intelligence collection, and processing 
systems aboard our major cutters. Today approximately half of 
our command and control and communication capabilities 
installed aboard Coast Guard platforms are Navy-type, which 
enables us to interoperate under a joint operational 
conditions.
    We are also collaborating with DoD and DHS to align our 
biometrics concept of operations and assess biometrics 
capabilities currently used by U.S. Coast Guard boarding teams 
in the Persian Gulf and the Caribbean Sea for potential use 
across a wider scope of DHS homeland security missions. The 
Coast Guard is working to translate our experience gained from 
our on-going work with DoD's services to support expanding 
efforts under the lead of Science and Technology Directorate of 
the Department of Homeland Security.
    The Coast Guard is committed to continuing with our 
departmental partners and other military services to support 
complex projects with the potential application across military 
and government. The approach maximizes the limited resources 
that we have to address the research and development priorities 
of the U.S. Coast Guard.
    Thank you for the opportunity to discuss the Coast Guard's 
effort and association with our partners in DHS and DoD, and I 
am ready to answer your questions.
    Mrs. Miller. Thank you very much. We are ready to ask you 
some questions, as well.
    So we appreciate all the testimony.
    You know, I have been sort of on this thing for--ever since 
I came to Congress, quite frankly, because as somebody said, we 
have an historic opportunity now, with the drawdown in Iraq and 
Afghanistan, et cetera, to really look at how we can best 
utilize so much of this equipment that has been used very 
effectively in theater. I always remind myself that the first 
and foremost responsibility of the Federal Government is to 
provide for the common defense.
    That is actually in the preamble of the Constitution. It 
doesn't say that we are to be doing a lot of other things that 
we do, not that they are not priorities, but the common 
defense, in my opinion, is National defense, is National 
security, homeland security, and a big part of that is securing 
our border, and that is what this committee's mission is.
    So, how can we think about all of this DoD equipment that 
might be able to be utilized? You know, as well, of course, we 
all have copies of the 9/11 Commission recommendations. I have 
a copy right on my desk; I try to make sure it doesn't become 
just shelfware and collect dust, but we look at it all the 
time. One of the principal recommendations of the 9/11 
Commission recommendation was that we need to move from the 
need-to-know to the need-to-share. I think whether that is 
intel or equipment, whatever, the taxpayer is not always making 
the assumption that we are in these silos that we all do here 
on Capitol Hill. So I think it is for us to look at how we can 
actually share some of these things.
    In fact, that is my thought about having this committee 
hearing today. Actually, when we did the recent DoD defense 
reauthorization bill I actually had an amendment that I offered 
that I was delighted passed that required the DoD and the DHS 
to look at these kinds of things and what each agency may be 
able to bring to bear to the best utilization of the taxpayers' 
bang for the buck. So I am glad about all of that.
    You know, I say a historic time and an opportunity that 
could be missed here because in my mind we missed an 
opportunity as a Congress when we did the last BRAC--the base 
realignment and closure commission. Quite frankly, as we were 
looking at how we could best utilize inventory domestically, in 
particular--military inventory--and I am not sure exactly the 
wiring diagram with the Department of Homeland Security as far 
as looking out regionally and renting office space and 
everything else, I think we should be using military 
facilities, quite frankly, as a physical footprint for a lot of 
DHS, as well.
    We have that, just for a moment, in my area--Mr. Borkowski 
is well aware of--where we have recently stood up the Great 
Lakes branch of the Northern Border wing, and as we look at, on 
the Northern Border security that is more personnel from CBP, 
air assets, both fixed-wings and rotor, it is water assets, as 
we have the unique circumstances and dynamics of a long liquid 
border there.
    It is also something we call an OIC, which is an 
operational integration center pilot program for the Northern 
Border that can be replicated along the Southern Border, as 
well, where we had, actually, very good success with the SBInet 
in our area, but this thing is state-of-the-art data analyzing 
feed by all of the various stakeholders.
    Again, it is the need-to-know, the need-to-share, where you 
have got the Federal Government, the State government, even the 
emergency management directors of our local counties, marine 
divisions all feeding in assessments of a threat that can be 
then used. The Coast Guard is there, as well, but the Coast 
Guard Air Station Detroit is there, as Mr. Tangora knows, all 
feeding their information in that can be utilized by our brave 
men and women out in the field to assess the threat.
    So I guess I sort of want to know how--and I suppose this 
is for Mr. Stockton and Mr. Borkowski, as well--the DHS sort-of 
calls this foraging, which I thought was an interesting term, 
sort of reminds you of an animal out in the woods foraging for 
nuts, I guess. But you are sort of foraging through DoD to see 
what kind of technology can be utilized, and if you have a one-
stop shop how does it all work? Is there a necessity for a 
stronger structural system throughout the wiring diagram so 
that it can be used--because it is such a huge department--DoD, 
and now DHS, as well. How can this be utilized most 
effectively? So I throw that question out--either gentleman.
    Mr. Stockton. I will be happy to speak to it first. The 
Domestic Preparedness Support Initiative is the program that we 
have put together in order to provide for that one-stop 
shopping. Let me tell you how it works.
    We work in two directions, both to identify capabilities 
that we can transfer to our DHS partners in response to their 
requests for assistance, but also to State and local public 
safety organizations who work very closely with the armed 
services and other components of the Department of Defense to 
find out which kinds of articles are likely to be declared to 
be excess that might actually be needed by our partners. So we 
work that very, very closely with our lead partners, the 
Defense Logistics Agency.
    Let me just add my praise to an organization that doesn't 
get enough. DLA does a great job in this regard.
    So we look at the supply. Then we work very closely with 
DHS, CBP, all of our partners, and also aggressive outreach to 
State and local first responders to find out what are their 
highest priority requirements. We have built a web-based system 
to identify what they need, and with the help of DLA, match 
that up to the capabilities that are acquired in excess 
property.
    That is the way that we work, but with TSWG and a variety 
of other opportunities to be in support of DHS in ways that 
make sense for the taxpayer, that add great value at marginal 
cost to the Department of Defense----
    Mrs. Miller. So, if I might, you are not advocating any 
change. You are saying that what you are doing right now is 
adequate?
    If that is the case, let me just ask you this: What is the 
criteria, for instance, when you go to local first responders, 
or through the State coordinators, or however you are 
determining how you are giving some of this excess to first 
responders, as an example? Because our Congress has had a huge 
debate, for instance, about firefighters' assistance grants and 
whether or not we should be sending it to New York, or 
Nebraska, or who gets it--or what is the criteria, et cetera?
    Mr. Stockton. The specific criteria I would be happy to 
provide for the record----
    Mrs. Miller. Okay.
    Mr. Stockton [continuing]. But what I do, for example, is 
last week I met with Jim Schwartz, the fire chief for 
Arlington, and we talked about what his priority needs were in 
that jurisdiction. I have a team of folks who conduct this 
aggressive outreach. We rack and stack their prioritized 
requests for assistance, and then we, with the help of the 
Defense Logistics Agency, try to match up their requirements 
with what we have.
    I will say this, though, that there are some assets that 
are very scarce and very expensive, such as night vision 
devices. That is why we have this pool of equipment to lend 
out, to loan, to lease, again, at very low cost, because we 
know that demand for this equipment vastly outstrips the supply 
that we have available. That is why we have had this particular 
program.
    Mrs. Miller. In the interest of time, just one follow-up 
question to that: One of the things I have a huge interest in, 
as we mentioned, about the Predator drones, which is a great 
technology that has application for DoD and DHS, have you 
looked at land systems, some of these land systems? You look at 
these robots that they are using on the border between 
Afghanistan and Pakistan. Again, you know, you get somebody 
sitting in a cubicle drinking a Starbucks that are running 
these things. Too bad if they get knocked off, but the--if the 
robot gets shot, but we didn't lose a person so it is wonderful 
technology.
    But these have the ability to, again, send back the 
information to the individual about assessing the threat, what 
the environment is, et cetera, et cetera, and if we can utilize 
those kinds of things in theater certainly we could use that on 
the Southern Border, as well, and the Northern Border, for that 
matter. Is there any movement in regard, specifically, to land 
systems?
    Mr. Stockton. There is, but I would defer to my friends 
from CBP to talk about that, and then I will also follow up as 
needed.
    Mr. Borkowski. Part of the issue with connectivity, by the 
way, is on our side of the equation. One of the reasons that my 
office was created a little more than a year ago was because we 
needed to collect to come up with a single point of entry into 
CBP, and we are still evolving that. So part of the--there is 
an issue on our side. I don't think everybody really 
understands all the time that DHS Science and Technology is a 
key part of that, so I think we have some marketing to do on 
our----
    But the challenge that I have is that I do understand that 
there are these points of contact in the Department of Defense, 
but I have things that come to me outside of those chains. 
Often they are interesting, and I don't think that it would be 
appropriate to try to shut that dialogue down. So I am a little 
skeptical about the likelihood of success of defining rigidly, 
you know, an infrastructure that connects DHS and DoD because I 
think it would shut down--the best I can do is make it clear 
that I am willing to receive as much as someone is willing to 
offer.
    Just so you know, I am probably up to, like, 1,000 
meetings, and some of those are DoD, and some of those are 
industry, including, by the way, ground systems that you talk 
about, which we are interested in. The question for us is going 
to be, what do I do first?
    Those are the kinds of trays that we have going forward, 
but we do have capacity to pilot things. We have included 
within CBP the capacity to pilot, so we take things like ground 
systems that are available to us, or identified to us, show 
them to the Border Patrol, show them to the Office of Field 
Operations, show them to Air and Marine, and say, is this 
something you would like us to check out as one of our first 
priorities?
    If it is we will go do it, but we do have that dialogue 
with ground systems; we have that dialogue with the 
communications systems; we have that dialogue with aerostats.
    I would also say that at a lower level than some of the 
discussions that we are talking about here we have tried to 
create some networks. For example, Joint Program Manager 
Guardian is a clearinghouse of sorts for the Department of 
Defense for systems. So I have co-chaired with them some 
conferences to bring in--by the way, not just DoD and DHS; we 
have had FBI--other Federal agencies with common technology 
interests to at least start the dialogue of what is available.
    So I think we need a little more structure, but I am a 
little skeptical that we can make it too structured. The best 
approach that I have found is let people know that we are 
willing to hear what is available and then invite those 
discussions and expose them to our operational users.
    Mrs. Miller. Thank you.
    I am over my time here, but I would just say, we also had 
discussion between Mr. Clarke, who is a Member of the full 
committee and this subcommittee, as well, from Detroit, and 
myself, and he was offering an amendment. We decided not to do 
it, but we are going to pursue it in the reauthorization on the 
floor, about test bedding, whether or not--and I don't know if 
that maybe gets in the way of your structure, or if it is a--an 
assist for the Department to be able to test bed in various 
locales, whether it is the Southern Border or the Northern 
Border, on these kinds of things. I would like to talk to you, 
maybe, after the committee hearing a little bit more about 
that, if that is something that is of value to you.
    At this time I would recognize the Ranking Member.
    Mr. Cuellar. Thank you very much, Madam Chairwoman.
    Assistant Secretary Stockton, let me follow up on what the 
Chairwoman said. Since the Southern Border, as you know, is the 
emphasis of a lot of the Members I would ask you, first of all, 
would you be willing to go down there and meet--if I can put 
border sheriffs and border policemen, DPS, and other folks from 
me, would you be willing to travel down to the border to go 
meet with them?
    Mr. Stockton. It would be an honor. I have been there 
before, but the facts on the ground continue to evolve, and so 
a chance to go down there, listen to local law enforcement, 
listen to our CBP partners, it would be an honor.
    Mr. Cuellar. Okay. What we will do is we will have, of 
course--Homeland Security, we will have the Coast Guard, also, 
since they have a presence there on the border, and certainly, 
you know, we will bring border sheriffs and border police at 
some place there where we would love to have you there, No. 1, 
so thank you for that, No. 1.
    No. 2, give me--and following what the Chairwoman said, 
let's say that I am a policeman in Mission, Texas, border 
county--I mean, border area. Where do I start? If you were me--
I didn't know you until now, and I was looking that you have 
the--under the defense authorization you are the key person to 
share with the State and local folks and Federal folks on 
homeland security assets and technology.
    If I was a police commissioner in a border area, where do I 
get started? Could you give us a one, two, three, because I am 
sure if a police chief tried to get ahold of you it might be a 
little difficult, might be different lines before they can get 
ahold of you. Tell me, what is--how does somebody get started?
    Mr. Stockton. Well, I meet as many police chiefs and 
sheriffs as I can. We have an aggressive outreach effort. We 
bring people here to the National Capitol region by the 
thousands. I also travel.
    But web-based outreach is especially effective. We have 
done a very aggressive job of trying to make it easy to get to 
my team so that we can then engage with DLA, engage with the 
services, and match up the supply of excess defense articles 
with what is required by our DHS partners, but also, 
ultimately, cops on the beat.
    In the State of Texas I am proud to say that thus far this 
fiscal year we have already transferred almost $16 million 
worth of equipment--tactical vehicles--62 vehicles this year, 
almost 1,200 weapons--specialized weapons for law enforcement, 
watercraft. These are coming to the State of Texas based on 
requests that we get from local law enforcement and the State 
interloculars that we have in the great State of Texas.
    We have got a system that is working well. It has gone from 
$200 million in transfer of excess materials to almost $600 
million thus far this fiscal year, compared to last. We are 
ramping up.
    That gets back to the question of whether structurally we 
need help. I don't believe we do. We need continued, dedicated 
focus of the Department of Defense to be in support of our DHS 
partners and the State and local public safety organizations, 
ultimately whom we are in support of, at no cost to the 
Department of Defense or marginal cost, because that is--we are 
in a very difficult budget situation, as well, and so we are 
looking to maximize the efficiency and the effectiveness of 
this program rather than adding burdens on the American 
taxpayer.
    Mr. Cuellar. Thank you, Mr. Secretary. Do you know what 
cities they went to when you mentioned Texas, just out of----
    Mr. Stockton. I do not know, but I would be happy to 
provide that material for the record.
    Mr. Cuellar. Okay. Okay. I mean, I am just--you know, Texas 
is a large State----
    Mr. Stockton. Yes.
    Mr. Cuellar [continuing]. And I know that when we provide 
homeland security dollars in the millions of dollars and people 
emphasize the border, what is it, 9, 10, 11 percent only goes 
to the border, and everything goes--and again, I support the 
whole State of Texas, but--so I am just wondering if that is 
going to border, or it is going to the Dallas, Fort Worth, 
Houston areas, and I would be just curious. But I certainly 
want to--there is a lot of emphasis on the border, and I 
certainly want to do my job in representing the whole border in 
the State of Texas.
    So we are going to follow up on that meeting, and we will 
get you border sheriffs and police, and other folks, and 
certainly the other partners here, because we are very 
interested in your work. Especially, the more I look at this 
sentence, your, you know, your authorization and you are key--I 
think you are going to be very key to the Northern Border, and 
to the Southern Border, and we are going to have to get out the 
word on what you do in our own way.
    So we thank you.
    So, Madam Chairwoman, I don't have any questions. I just 
want to thank the Secretary for being here, and of course, the 
other Members here that are present here today.
    Mrs. Miller. Chairwoman now recognizes the gentleman from 
Mississippi.
    Mr. Thompson. Thank you very much, Madam Chairwoman. Good 
hearing.
    I wanted to move it a little bit from the 1401 arena, which 
is good, but let's talk about accessing DoD technology, okay? 
The equipment is fine, absolutely. I have seen it rust on 
military bases for years.
    But how--what is a formal process that a border sheriff or 
somebody who is looking for a specific technology--what will 
they have to do with DoD?
    Mr. Stockton. For technology outreach, much of what we do 
is in support of our Federal partners through the TSWG and for 
the other kinds of Federal partner support, for DHS, above all, 
that then they can provide to the emergency managers in States 
and localities. So our primary technology support is for our 
Federal partners.
    But I would say that for wound treatment, for many of the 
other capabilities that we have built to win our wars abroad, 
that technology then does get applied for support for our first 
responders.
    Mr. Thompson. So is that a formalized process for this 
technology access?
    Mr. Stockton. It is, and I would invite my partners from 
the Department of Homeland Security to talk about that process, 
and then I will have a specific example, also, to offer.
    Mr. Borkowski. Well, I would just offer that we are aware 
that--I think what you are talking about is when equipment 
might be excess and might be available, and there is a formal 
process. I believe the acronym is DRMO, the defense 
reutilization----
    Mr. Thompson. Yes. No, I am not talking about----
    Mr. Borkowski. Oh, okay. All right.
    Mr. Thompson. We understand the hardware piece. But this 
hearing is to talk about DoD technology and how we can use it 
to secure the border, and we have kind of moved toward the 
equipment side of the conversation rather than the technology 
side.
    I am trying to figure out how--what is the process by which 
a local official makes a request for a specific technology, if 
we have that process defined, and if so, what is it?
    Mr. Stockton. That may be an opportunity to make further 
progress, because to the best of my knowledge most of the 
technology focus that we have is in direct support and 
partnership with the Department of Homeland Security and other 
Federal department partners, as opposed to providing technology 
directly to local law enforcement. Equipment goes to law 
enforcement; our technology partnership--and I take your 
point--is primarily with our Federal partners, as opposed to 
building that same two-way system that exists for equipment 
with State and locals for technology.
    Mr. Thompson. Okay. Well, is there a formal process for DoD 
to use that technology with CBP, for instance? What is the 
process?
    Mr. Stockton. Well, on the Southwest Border, above all, we 
have Joint Task Force North that provides technical expertise 
in support to CBP. So that involves demonstration projects that 
enable the CBP to understand how to use Predators effectively, 
ground-based radars, tunnel detection technology, both acoustic 
and non-acoustic. So we have intensive technology sharing 
between the Department of Defense and our partners at CBP, ICE, 
and DHS as a whole. That is very robust.
    Mr. Thompson. Right.
    So, Mr. Borkowski, the process is you define a technology 
that you, for whatever reason, need. Do you make that formal 
request to DoD? What do you do?
    Mr. Borkowski. Yes. We have a process where we have a 
frequent dialogue--and in fact, in some cases it is an 
organized meeting--with JTF North, Joint Task Force North, and 
Joint Task Force North and our folks on the border get together 
and say, what have you got? What are you interested in? So they 
have a little bit back and forth, these are the technologies we 
could bring to bear; these are the operations we would like to 
conduct.
    Joint Task Force North will reach out to the rest of the 
Department of Defense. Many times this becomes part of a 
training exercise for an element of the Department of Defense.
    In fact, the technologies that Representative McCaul and 
Ranking Member Cuellar and I went and saw at Laredo were part 
of one of those operations. It was an agreement reached between 
JTF North and, in that case, the Border Patrol to conduct an 
operation with technology in support of Border Patrol 
operations in Laredo.
    So there is a process. We have that dialogue routinely, and 
then JTF North will schedule operations in support of those 
discussions.
    Mr. Thompson. If I might, so if you do that----
    Mr. Borkowski. Yes.
    Mr. Thompson [continuing]. Do you shift the cost of that 
operation to CBP or is it still within the budget of DoD?
    Mr. Borkowski. Typically we do not, and I want to get 
specific answers to you so let me double-check. But I believe 
the answer is no; DoD does this as part of a DoD then training 
exercise, so it usually gets covered under a training exercise 
for DoD that we are able to take advantage of operationally. So 
for the most part I believe we do not pick up the cost of that. 
I would like to confirm that, but I am pretty sure that is 
true.
    Mr. Thompson. Beyond the training, does it become an on-
going integral part of CBP or is it just for the training?
    Mr. Borkowski. It is training for the military. There is a 
continuing relationship. So we don't have the same operations 
all the time with the same technology and the same units of the 
military all the time, but we do have a continuing relationship 
with Joint Task Force North, which we have come to depend and 
rely on. Joint Task Force North will apply different resources, 
different units, different technologies based on those 
discussions. So there is a continuing relationship but the 
specific thing we might be doing will change over time.
    Mr. Thompson. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Chairwoman now recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. I want to commend 
you for making the comments about the 9/11 Commission report.
    Some of my own thoughts of integration and sharing of 
information--and let me remind the panelists and the committee, 
we are all in this together. Whether you are working for DHS or 
DoD or are Members of Congress, we are all in this together to 
protect the sovereignty of this great Nation, to enforce the 
laws that we have here, to stop illegal and illicit drugs from 
coming in, and other things that could possibly come and cross 
the border. So I hope that the information sharing does take 
place, that the equipment, technology, research, all that is 
shared across agency lines, because that is how it should be 
done and that is what the American people expect.
    I just came back from a trip over to Afghanistan, Iraq, and 
Pakistan where the border situation was a topic of discussion 
many, many times, whether we were meeting with the military 
folks coming out of Iraq, with folks charged with securing and 
enforcing the border between Pakistan and Afghanistan, or Mr. 
Cuellar asking the Pakistani president about the border, and 
the question back and forth--Pakistan--the Pakistan president 
asked Mr. Cuellar how much we spend on securing our border.
    So it is an interesting opportunity today to have this 
hearing following up on that, and I want to commend the 
Chairman McCaul for inviting me to go on that trip that was 
very worthwhile.
    So having come back from talking with the military leaders 
that are coming out of Iraq and understanding there is a lot of 
technology, a lot of lessons learned in that theater--lessons 
learned every day in Afghanistan--and many Members of this 
committee continue to advocate the acquisition of proven 
technologies used by the DoD and learning from those lessons in 
those theaters, and also hearing today of the deployment of 
some of those technologies on the Southwest Border as we wind 
down those operations.
    While I understand DoD has a much larger budget for 
researching and developing new technologies and a large group 
of personnel who are trained using certain technologies, I 
guess, Mr. Borkowski, can you describe some of DHS's challenges 
in transferring or receiving some of those technologies from 
DoD?
    Mr. Borkowski. Sure. In terms of technologies that are 
fairly self-contained, like the--what we call the agent 
portable sensor systems are the things that we looked at in 
Laredo and that we are actually buying, there isn't too much of 
a challenge. We do have to train our agents to use that, but 
that is typically not terribly difficult. We can do that.
    The difficulty comes when I bring in a DoD system that I 
have to plug into my command-and-control system. Typically DoD 
systems, for example, will use satellite communications fairly 
routinely. Satellite communications are expensive for us if 
done on a persistent basis. We also need to plug that into our 
command-and-control system, which may not be the same as DoD's 
command-and-control system, and that can be a challenging 
technical development activity.
    If it is an extensive technology, something like 
aerostats--which, by the way, look very promising to us--but 
they require crews. They have significant operational costs 
associated with them, and that is often missed in here. So I 
also have to be able to absorb the cost to operate and maintain 
the systems, which, again, I have a different budget threshold 
for that than maybe the Department of Defense does.
    So the challenges are if they are not self-contained and I 
have to plug them into my current operational system I will 
have engineering development that I will have to do, which can 
be expensive. I do have to be sensitive to the operations and 
support costs of the systems.
    For very--relatively, not very--relatively complex systems 
I do have to worry about the training and the development of 
crews to operate them as I bring them in. Having----
    Mr. Duncan. Along that line, though, we have got a huge 
number of personnel coming out of the military. As the 
deployments transition and we wind down the theater in Iraq, 
there is an opportunity there to hire already-trained DoD 
personnel to run these systems.
    Are you all looking into that? What are the hiring 
guidelines and practices that you are putting in place?
    Mr. Borkowski. We haven't quite gotten to the point where 
we are buying the systems yet, but I think you are absolutely 
right. If we get to that situation we would need to look at 
that opportunity to bring in these trained people if, in fact, 
they are available. We would need allocation of funds to pay 
their salaries and we would probably need some kind of 
expedited authorities to hire them, but that is something we 
would be very interested in talking to you about.
    Mr. Duncan. Okay.
    I don't have any further questions, Madam Chairwoman. I 
yield back.
    Mrs. Miller. Thank you.
    Chairwoman now recognizes the gentleman from Texas.
    Mr. McCaul. Thank you, Madam Chairwoman, and Ranking 
Member, for holding the hearing on this issue. I think it is 
one we have been focused on for a while. I think it makes a lot 
of sense.
    Mr. Borkowski, you mentioned previously our trip down to 
the border and we were looking at that time the Defense 
Intelligence Agency technology. Can you tell me where we are 
today with deploying that technology on the Southwest Border?
    Mr. Borkowski. Yes, sir. In the Arizona Technology Plan, 
which, as you know, is kind of a down-payment for the Southwest 
Border, we are buying 15 of those systems. We are actually 
buying them from the Army. I believe four are already 
delivered, and all of them should be delivered by December.
    We are also developing plans, obviously, for the rest of 
the border, which will include future procurements of those, as 
well, but that is the current status.
    Mr. McCaul. You know, we are always talking about securing 
the border. I think the physical infrastructure has been put in 
place, for the most part; it is the technology piece that has 
been lacking.
    Where do you--I mean, UAVs, you know, we have been working 
hard to get those down there, these fixed towers, sensor 
surveillance equipment. Can you tell me kind of where you are 
with your game plan and how long it is going to take before we 
can say, you know, that the technology piece has been 
fulfilled?
    Mr. Borkowski. Well, first of all, it is going to be many 
years at the current, you know, funding profile. But in terms 
of the plan, we have shown you in the past the lay down, 
essentially a map of Arizona and what we intend to put in 
Arizona. These are, again, available systems, many of which 
leverage DoD.
    We have built at my level--that is important to 
understand--that map for the whole Southwest Border. We are 
currently in the process of, you know, reviewing that with the 
senior management in the Department, but we are well along in 
having a map along the whole Southwest Border.
    The next element--we are also going to do the Northern 
Border, and we have done the early process of the Northern 
Border, but if I could start with the Southwest Border, because 
I want to talk about things like UAVs and such--the analysis 
that we did, which followed from SBInet answer to sort of the 
question that said, if we want something to replace SBInet what 
should it be? But that ``if we want something to replace 
SBInet'' is a very important kind of predicate to that 
discussion, right?
    The next thing we need to do is test that, ``if we want.'' 
That is where things like UAV or aerostats come into play, 
because there may be areas of the border where it makes less 
sense to put in persistent fixed infrastructure and more sense 
to put intelligence surveillance and reconnaissance assets that 
can assess whether things are changing, and in response to 
those changes adjust our technology plans.
    So over the next probably 9 months we will baseline that 
map of the Southwest Border, but then we will test that map 
against the--test the ``if'' question, if it makes sense to do 
this, against things like more persistent use of UAVs, 
aerostats, fixed-wing ISR kind of capabilities, so that is what 
we will be doing for about the next 9 months.
    Mr. McCaul. Thank you.
    Mr. Stockton, we, as I think the Ranking Member mentioned, 
we had a very interesting trip to Afghanistan, Pakistan, and 
Iraq. General Austin, in Iraq, pledged his support through our 
delegation to assist in any way the DoD can with assets as we 
wind down those operations overseas towards the Southwest 
Border and Northern, as well.
    Where do you see--you are sitting down with General Austin, 
what would you say that we need, and what is available to 
transfer to the border?
    Mr. Stockton. Let me talk about both sides of those 
equations in turn. First of all, when we analyze what the 
requirements are we depend on our partners in CBP and the 
Department of Homeland Security, our other lead Federal agency 
departments, to specify what their requirements are. Border 
security is a law enforcement mission, not a military mission, 
and this is an opportunity to be in support of our closest 
partners.
    So we listen hard to Commissioner Bersin, all of our 
friends at CBP and at DHS as a whole, so that we can make sure 
that scarce DoD resources are used in a way that has the 
biggest bang for the buck, but also fits the integrated vision 
that CBP is developing for the future. That is their vision. We 
are in support, although the scarcity of DoD resources, of 
course, is very much in our minds.
    Turning to the other side of the question, how do we source 
these potential requirements that we get from our lead Federal 
partners, there we work very closely with the armed forces, 
with the military departments, with the Defense Logistics 
Agency to understand what are the priority demands on equipment 
that may be coming back, and what could be most useful that is 
available to support Department of Homeland Security?
    So the challenge, of course, as you were to understand, is 
there is only so many assets to go around, and it is a harsh 
process of prioritization that we have to go through at levels 
above mine, frankly, to decide where some of these scarce 
assets are going to go.
    Mr. McCaul. Well, I think this committee would like to be a 
part of that decision-making process, and I think the idea of 
bringing you all down to the border is actually a very good 
one, and I hope we can follow up on that with the Chairwoman 
and Ranking Member. I think a visit to the Joint Task Force 
North, which seems to be the plug-in between the DoD and the 
Southwest Border and DHS, would be very productive.
    With that, I yield back. Thank you.
    Mrs. Miller. Thank the gentleman.
    Chairwoman now recognizes the gentlelady from California, 
Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chairwoman. Appreciate your 
leadership on this.
    Mr. Tangora, given the growing risks of pirates and other 
interdiction efforts that are going on by our Coast Guard--for 
example, semi-submersibles, and other things--I believe that 
our Coast Guard's men and women need a quick way to identify 
who they have got on their hands when they have stopped them, 
for example, to see if those individuals are on watch lists and 
to take whatever appropriate action that they need to do.
    I am also a Member of the Armed Services Committee, and I 
am very familiar with DoD's biometric efforts, their 
technologies that they are using in particular in the remote 
areas of Afghanistan to--the technologies that they use to 
biometrically identify high--and look at and enroll high-risk 
individuals they have picked up.
    So my question to you would be: Have you been looking at 
some of the technology that DoD has that you might be able to 
leverage, and where would you see--I mean, I am thinking in 
particular of people that we catch as they are trying to land 
on our beaches, et cetera, but where else might that be 
applied? What are the constraints in your ability to be able to 
get that technology and use it for the Department of Homeland?
    Mr. Tangora. Thank you, Congresswoman.
    The biometrics initiative that we have been now doing for 
approximately 8 years have been yielding outstanding success. I 
mean, we have cut down immigration in the Mona Pass with 
biometrics--two-print biometrics--by 80 percent. You know, we 
are being able to spread our assets a lot further in the 
Caribbean because of the success of that. We are able to get 
the right people identified and prosecuted--I think we have 
prosecuted over 400 people in the last 6 years in migrant 
interdiction based primarily upon what we are getting out of 
the biometrics.
    The challenge is we have very small cutters that are 
interdicting these boats in the Caribbean, and we do not have a 
large pipe or a large satellite feed down to these small units, 
and so we go with a two-print, but we want to get further into 
what the DoD uses, which is--and the FBI uses--which is the 10-
print. We are going to be able to use that technology to better 
aid our men and women being able to quickly identify exactly 
that people have known criminal backgrounds when we interdict 
them, especially in the Caribbean.
    We use the technology in the Persian Gulf, also. It is 
absolutely a game-changer, and it is a force-multiplier.
    Ms. Sanchez. If you gentlemen would talk to me about, I 
know one of the things that we saw--I was the Chairwoman of the 
Border, Counterterrorism Subcommittee of this committee when 
the Democrats were in charge, and under that fell SBInet. One 
of the issues that we had was the cellular towers that we had 
up, and the sabotaging of that technology by coyotes or 
whomever--drug dealers, let's say. Talk to me about 
communications for these systems, and what are the 
difficulties?
    I mean, I can think, wouldn't it be great if we had this 
biometric handheld thing that, you know, when we have found 
somebody out in international waters, or what have you, and we 
thought they were drug dealers, and we wanted to scan them, is 
there a technology--what cell towers, how are we going to get 
that done and what are the drawbacks to having that technology 
based on that?
    Mr. Cox. Thank you for the question. We actually have been 
working for several years now with DoD and the Department of 
Justice to bring biometrics to the field. A lot of the issue is 
actually getting the heavy prisms and other collection methods 
to get beyond the two-print into the field and make it sort of 
man-portable and ruggedized for deployment along the border or 
in a maritime environment.
    Then we will have to address the complicated nature of 
having these systems transmit their information to all of the 
databases that contain--please----
    Ms. Sanchez. But the ruggedized is done in the DoD, isn't 
it? I mean, that is what we have. They are actually in remote 
areas in Afghanistan with handheld rugged.
    Why aren't we moving that technology or those instruments--
--
    Mr. Cox. We are.
    Ms. Sanchez [continuing]. Over to DHS?
    Mr. Cox. We are. We are--those investments, but it is also 
the marinization, everything--making it affordable for our 
mission and making the connection to the multiple databases 
across law enforcement agencies that have this information that 
you are asking about.
    Ms. Sanchez. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you very much.
    Chairwoman now recognizes the gentleman from Detroit, Mr. 
Clarke.
    Mr. Clarke of Michigan. Thank you, Madam Chairwoman, and 
thank you for acknowledging the city that I am born and raised 
and currently represent.
    Also, I want to thank you for holding this hearing because, 
you know, as you are aware, the region that I represent is at 
high risk of an attack, or the economic consequences of any 
type of natural disaster impacting that region could be great, 
and by looking at the possible synergy of DoD technology to 
protect that region and that border, wanted to get your 
opinions on if you feel that this could create an opportunity 
to build the capacity of local businesses in metro Detroit, and 
thereby creating jobs. Let me just give you an example.
    First, just to share with you my view of the risk of an 
attack at that border: We have the busiest international border 
crossing of North America, so our bridge, our tunnel, they are 
targets; our drinking water plant there could be vulnerable to 
a bioterrorism attack; as a matter of fact, our international 
regional airport has already been a target of an attempted 
bombing. The infamous Christmas day bomber attempted to bring 
down a plane that landed in the Detroit Metropolitan Airport.
    While we have that risk, that region also has the capacity, 
I believe, to respond. We have DoD contractors in the region, 
primarily in the area that the Chairwoman represents.
    This is Detroit. We still have the manufacturing know-how. 
We also have some of the best-trained engineers in the country.
    We also have strong research universities. As a matter of 
fact, right within the heart of the city we have Wayne State 
University, and in Detroit we have large parcels of vacant land 
that are ready to develop--it already has the infrastructure 
needed to serve a facility there.
    So my question is: Do you see the possibility of the city 
of Detroit being a site for testing and evaluating homeland 
security technology or DoD technology that could have an 
application to homeland security uses, such as--let me give an 
example--video surveillance to monitor our borders, 
cybersecurity, as well, and preparing--preparedness against a 
bioterrorist attack? That is No. 1, and then if I have time I 
have a follow-up related to that question.
    Mr. Borkowski. Yes. Thank you for that question, 
Congressman Clarke.
    The short answer to your question is, do we see Detroit as 
a potential--yes, we do. Now, to be fair, as a member of the 
Executive branch I can't, you know, be--favor one part of the 
country as opposed to another, so to be fair we have often 
asked the same question about other parts of the border.
    We do see that Detroit has some unique characteristics, 
including the fact that it has got the largest port of entry, 
and that makes it attractive in some ways, compared to some 
other places, for particular parts of the mission. So to the 
degree we are able to look at tailoring that--because it is 
also true we have test beds in a lot of other areas.
    We don't want to be overly redundant, but we recognize the 
characteristics of Detroit; we recognize the existence of heavy 
industry there that perhaps is unique; we recognize that it is 
the largest port of entry. We think those things taken together 
make it worth at least having a dialogue about whether or not 
we ought to put something in Detroit.
    But again, there is a lot more homework to be done on that, 
and to be fair, there are similar situations with 
characteristics on other parts of the border that we also have 
to be sensitive to.
    Mr. Clarke of Michigan. Well, thank you. I would be willing 
to work directly with you to help you better see those 
opportunities there.
    One thing I will say is that, you know, Detroit has been 
very hard-hit. We have lost more jobs and more homes, more 
capital over the last 10 years than virtually any other 
metropolitan city in the country.
    But here is the difference, though: Our region has the best 
potential, though, for job growth, just because of the capacity 
that we have in manufacturing, and the universities, and the 
vacant land, and the trained engineers, and also with the DoD 
contractors that are there.
    So the second part of my question is: Do any of you see a 
way that our current DoD contractors in metro Detroit or other 
businesses could benefit from some type of a procurement or 
acquisition preference, especially since those businesses are 
located in areas that have high unemployment rates, like 
Oakland County, Macomb, Wayne County, and the city of Detroit--
so some type of acquisition preference that would give them an 
edge in getting work with the Department of Defense or with the 
Department of Homeland Security, you know, considering all 
things equal?
    They have got to have the capability to do the job and they 
have got to be scored, you know, well in the evaluation 
process, but especially if they are going to be delivering the 
technology right there in metropolitan Detroit, it would be 
great to have a metro Detroit company hiring metro Detroit 
employees to actually help protect our country.
    Mr. Borkowski. Certainly, Congress has the capability to 
develop acquisition and procurement preferences, and subject to 
the fact that the systems actually meet the needs, we are sort 
of, frankly, agnostic to that. That is a policy decision that 
we are perfectly comfortable and prepared to execute as long as 
we can get the products that we need.
    So I don't think it is appropriate for us to comment on 
that determination, but clearly, if there are preferences they 
do have--they do tend to affect the way that we buy things, and 
our only real interest is in making sure that what we ask for 
gets delivered to us.
    Mr. Tangora. If I could add, I mean, there is socioeconomic 
goals that we do, and the Coast Guard hit every one of them--
all of our hub zone, all of our small, disadvantaged 
businesses, all of our women-owned businesses. All of those 
different socioeconomic goals that the Department lays on us, 
you know, we try and do that.
    So, you know, looking at Detroit, it is a--in parts of 
Detroit it is a perfect hub zone type of thing, and I would 
think you would be able to exploit that and--in a lot of 
different Federal contracting initiatives.
    Mr. Clarke of Michigan. Thank you.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman. 
More than just protocol, I want to stress my appreciation for 
this hearing, to the Ranking Member, as well, for his insight 
and very constructive letter that I know you must have written 
to get a response that we have gotten from the Coast Guard. 
Thank you for that leadership.
    I have always said that the role of--even in this quiet 
room, the role of this committee and its counterpart on the 
other--in the other body, and the Department, and all of you 
who are sitting here is to ensure with every fiber in our body, 
if possible, that another attack on the homeland does not 
occur. Many times we sit in quiet hearing rooms away from the 
thunderous cloud of fear and potential threats that many of our 
soldiers see on the battlefield, it looks as if we are doing 
mundane work. I think that this is crucial work, and I am very 
concerned that we are confronting it the way we should.
    I am going to start with Secretary Stockton, on the return 
home of--and how are you? Return home of throngs of soldiers 
from Iraq, with the pending return of those from Afghanistan--
some of us would ask for them to come home earlier than they 
are. They will be coming home with a great degree of expertise. 
I would like to know the Defense Department's thoughts and 
plans for taking that expertise and cross-pollinating with 
departments such as the Department of Homeland Security, which 
is the closest partner to that, a possibility of DOJ, so that 
these resources can be used.
    I am not so apt--I am a big believer in small businesses, 
but I am not so inclined to ignore this talent, use of 
technology, and let it dissipate when we are confronting 
threats unknown.
    Secretary.
    Mr. Stockton. That is a terrific question. Portions of the 
answer go beyond my portfolio, but some of it is right on.
    First of all, I want to talk about the benefit of having 
these returning soldiers, sailors, and airmen continue to serve 
the Nation, continue to serve States and localities by virtue 
of joining the National Guard and the Title 10 Reserves, 
because Mother Nature is going to continue to confront the 
United States with severe hazards; as you pointed out, 
Congresswoman, the threat of attack is always there. So to have 
the terrific expertise that our forces have gained abroad and 
be able to serve in the homeland, for me that is an extremely 
important opportunity.
    But also, to have these returning soldiers be able to serve 
in public safety organizations in States and localities, again, 
to leverage the expertise, the leadership skills they have 
provided. We are building programs to facilitate that as well 
as into related industry. I know this is a priority for the 
First Lady, for the Vice President, and for the President, and 
it is a priority for my boss and all of us in the Department of 
Defense.
    It is a terrific opportunity. Let's not miss it.
    Ms. Jackson Lee. I thank you.
    I ask the Chairwoman my indulgence. I see my time is almost 
running, and I have a couple of more questions, but I will--do 
want to say this: I come from the largest--fourth-largest city 
in the Nation with a lot of influence in the energy industry, 
which crippled, would be a terrible blow for this country. I 
would like to extend an invitation for you to visit Houston and 
to talk to many of our leaders in the security area on just 
some of the ways of collaboration. So I would like to extend 
that invitation to you and work with your office.
    Mr. Stockton. It would be an honor to visit your district 
and get to know your community better.
    Ms. Jackson Lee. Thank you.
    Let me go quickly to Mr. Borkowski, quickly. Would you tell 
me how a collaboration with the DoD would be helpful to Customs 
and Border Protection?
    Could I get the Coast Guard--I am going to ask these 
questions, and then if you would just answer them--to indicate 
what the cuts in budget--the proposed budget cuts would do to 
your operations? I do want to thank you for helping us find a 
domestic abuser who killed his wife and who was out on the 
waters off of the Atlantic Ocean. Thank you for the kind of 
work that you do.
    Mr. Borkowski.
    Mr. Borkowski. Very quickly, and there are multiple ways 
that we collaborate with DoD that add value to us. One is in 
helping us to learn how to operate as an integrated force. One 
is in using their test facilities to test out the capabilities 
of various systems for our purposes, and one is actually to 
have developed systems and technologies that are fairly 
immediately transportable to our use.
    But one last that I would like to add is we do conduct 
joint operations, and we talked about that to some degree 
earlier with Joint Task Force North. That is another way that 
we collaborate, and those things actually operate to support 
surge capability and support border security activities.
    Ms. Jackson Lee. Very good.
    Mr. Tangora.
    Mr. Tangora. I stand with my commandant, who has been on 
record saying that the President's budget in fiscal year 2012 
is adequate for the Coast Guard, and we recognize that there 
are a lot of discussions about looming budget cuts, and----
    Ms. Jackson Lee. So, that is the question. The further 
budget cuts, how would that impact your operations? Having seen 
you operate off the coast--the Pacific Coast, or off the coast 
of some of our Central American countries, dealing with drug 
interdiction?
    Mr. Tangora. Right. It becomes a matter of capacity. I 
mean, you pay for what you are going to get, and at this point 
in time it would be purely speculative, you know, based on what 
we know, what the cuts would be and what that impact would be 
to the Coast Guard.
    Ms. Jackson Lee. Madam Chairwoman, let me just inquire to 
you or comment as I close, thanking you for your kindness. I 
think there is much room for the combined witnesses that 
represent the different organizations to collaborate.
    I hope this hearing will encourage further collaboration 
and I hope it will be noted that cuts to the Coast Guard 
budget, I think, would be severe. I have seen it in operation, 
and I see what would happen if they were cut even more than 
they have already been cut.
    With that, I thank the Chairwoman and I yield back.
    Mrs. Miller. Thank you very much. Thank the gentlelady.
    Thank all the Members that were here today, and all of 
their questions, and certainly the testimony from all of our 
witnesses, as well, which I think was very, very enlightening 
for all of us here. Again, when I started thinking about this 
hearing it was because of the historic opportunity that is 
staring us right in the face, and sometimes we don't recognize 
these opportunities as readily as we should, or certainly 
advantage ourselves as we should with them.
    So because of that, I think many of the questions today, 
and sort of getting right at the heart of the matter, 
specifically of what we need to be able to do jointly, and the 
total force concept is something that the military looks at and 
the Department of Homeland Security needs to continue to look 
at, as well. It is for those of us in Congress as we exercise 
our role in the whole overall, with oversight and having 
hearings such as this and asking questions that we all start 
thinking about better ways to do what is our joint mission.
    So I thank all of you.
    I appreciate your question, as well, about the budgetary 
constraints and what it would do to the Coast Guard, or anybody 
else, for that matter.
    We are all painfully aware, as I say, of the economic 
transition that has occurred in our country and what it means 
to every level of government, and which is one of the principal 
drivers of the impetus for this hearing, again, is how can we 
do a better job with the existing resources, those that have 
already been paid for, to secure our Nation? That is our common 
goal and our common mission, certainly.
    I would just mention for the other Members that the hearing 
record will be held open for 10 days, and if they have any 
additional questions they can submit them for the record, and 
we will have the witnesses answer those questions as they can, 
and we will appreciate it, and without--now recognize the 
Ranking Member.
    Mr. Cuellar. Yes, ma'am. Mr. Thompson, who had to leave, 
asked me if I can introduce into the records the Arizona Border 
Surveillance Technology GAO report that he was referring to.
    Mrs. Miller. Very well. Without objection.*
---------------------------------------------------------------------------
    * The document has been retained in committee files and is 
available at http://www.gao.gov/products/GAO-12-22.
---------------------------------------------------------------------------
    Without objection, this subcommittee stands adjourned. 
Thank you.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions for Paul N. Stockton From Honorable Michael T. McCaul
                          laws and regulations
    Question 1. Are there any changes to laws or regulations that would 
make it easier for DHS to receive transfers of DoD technology or make 
it easier for DHS to leverage DoD research? How can this process be 
made smoother?
    Answer. As noted in my statement for the record, DoD has proposed, 
and the administration and Congress have supported, expanding the laws 
permitting State and local law enforcement and firefighting agencies, 
including State and local homeland security and emergency management 
agencies, to receive excess DoD equipment or to purchase DoD equipment. 
DoD donated almost $500 million worth of excess equipment to Federal, 
State, and local agencies for use in counter-drug and counter-terrorism 
activities in fiscal year 2011. Additionally, DoD donated $1.7 million 
worth of excess equipment to DHS during that same period. To the extent 
that any such laws remain that have not been similarly expanded, DoD 
would support changes to these laws to expand them.
    DoD continues to work closely with its interagency partners, in 
particular DHS, to build capacity vertically from the Federal level 
down to the local level, and horizontally across the Federal 
Government. Pursuant to my responsibilities as the Secretary of 
Defense-designated senior DoD official responsible for coordinating 
``all Department of Defense efforts to identify, evaluate, deploy, and 
transfer to Federal, State, and local first responders technology items 
and equipment in support of homeland security,'' in accordance with 
section 1401 of the Bob Stump National Defense Authorization Act for 
Fiscal Year 2003 (Pub. L. 107-314), I established the DoD Domestic 
Preparedness Support Initiative to facilitate Federal, State, and local 
awareness of the availability of DoD technology and equipment, as well 
as DoD research initiatives. I would appreciate continued support from 
Congress for the DoD Domestic Preparedness Support Initiative.
                        assistance from congress
    Question 2. What can Congress do to further assist DHS in 
leveraging DoD research and development?
    Answer. As illustrated in my statement, and those of my colleagues 
from DHS, DHS has been very successful at leveraging DoD research and 
development, as well as working cooperatively with DoD on research and 
the development, testing, and evaluation of technologies. At this time, 
I cannot identify any additional assistance that DoD or DHS require 
beyond the already vital leadership and support we have received from 
the Congress.
                       expedited hiring authority
    Question 3. Would it be helpful to give DHS an expedited hiring 
authority for returning armed services members to operate DoD equipment 
that has been transferred from use in the Middle East to the DHS 
components? How would this hiring authority work?
    Answer. It would be best to ask DHS whether it requires an 
expedited hiring authority. My understanding is that DHS has sufficient 
authorities to hire members of the Armed Forces, who are retiring or 
separating from military service.
    As for members of the Armed Forces returning from operations in 
Iraq and Afghanistan, it is important to note that most of these 
members remain in the Armed Forces after their return. DoD would not 
support any change in law that would diminish the retention of members 
of the Armed Forces. Such a change would seriously threaten the 
military preparedness of the Armed Forces.
 Questions for the Department of Homeland Security From Honorable Mike 
                                 Rogers
    Question 1. Has DHS coordinated with DoD to identify existing 
command-and-control technologies or techniques that allow for large-
scale data integration and processing from ground sensors, video 
cameras, radar arrays, and other devices?
    Answer. The response, containing sensitive information, is retained 
in the committee files.
    Question 2. Has DHS explored integrating more advanced imaging 
systems onto its current manned and unmanned air assets?
    Answer. The response, containing sensitive information, is retained 
in the committee files.
    Question 3. Has DHS fully reviewed DoD's use of unmanned airships 
as persistent sensor platforms and communications relays? Has DHS 
conducted a cost comparison between various types of unmanned air 
platforms?
    Answer. The response, containing sensitive information, is retained 
in the committee files.
   Questions for the Department of Homeland Security From Honorable 
                           Michael T. McCaul
    Question 1a. Are there any changes to laws or regulations that 
would make it easier for DHS to receive transfers of DoD technology or 
make it easier for DHS to leverage DoD research?
    Question 1b. How can this process be made smoother?
    Question 2. What can Congress do to further assist DHS in 
leveraging DoD research and development?
    Question 4a. Would it be helpful to give DHS an expedited hiring 
authority for returning armed services members to operate DoD equipment 
that has been transferred from use in the Middle East to the DHS 
components?
    Question 4b. How would this hiring authority work?
    Answer. DHS is a key partner in the President's Export Control 
Reform Initiative, of which the cornerstone of the effort is the 
rebuilding of the export control lists. The administration is currently 
in the process of publishing proposed regulations to solicit input on 
the draft rebuilt control lists, which prioritize those defense 
articles that should remain controlled on the U.S. Munitions List 
(USML) administered by State and those that should be moved to the more 
flexible authorities of the Commerce Control List (CCL) administered by 
Commerce. Once all the proposed rebuilt categories of the control lists 
are published for public input, State and Commerce will publish these 
regulations in final throughout the course of 2012. DHS supports this 
effort, as the prioritization of U.S. export controls will facilitate 
DHS use of controlled items and technologies.
    DHS appreciates the interest of the committee in ensuring that the 
Department has the authorities and mechanisms necessary to accomplish 
its mission. However, sufficient authorities exist allowing for the 
transfer of technologies, the sharing of research, and the hiring of 
veterans to fulfill critical needs. Section 1401, Pub. L. 107-314, 
along with other laws regarding government use rights and disposed 
equipment, already allow DHS access to newly developed technology and 
retired military hardware that it deems appropriate to the mission. DoD 
has established the ``Domestic Preparedness Support Initiative'' which 
addresses the requirements set forth in section 1401 and the formal 
relationships between DHS Science and Technology and DoD provide the 
interagency mechanisms needed to ensure DHS is aware of technologies 
and that they are shared. Additionally, existing hiring authorities and 
preferences for veterans, in conjunction with the specialized 
experience required to perform duties in this arena, are sufficient to 
attract and appoint the talent with the requisite knowledge, skills, 
and abilities.
    Question 3. DHS S&T and the Department generally rely heavily upon 
personal relationships, the individual experiences of its workforce, 
many of whom previously worked at DoD, and a reliance on detailed 
employees to liaison between components and DoD. Should the process be 
more formalized, in the event that the people retire, move on, and are 
replaced, in order to maximize collaboration, technology transfers, and 
research and development investment between DoD and DHS?
    Answer. Since the formation of the Department of Homeland Security 
(DHS), DHS's Science and Technology Directorate (S&T) has looked to the 
Department of Defense (DoD) as a source of technology and partner in 
research and development, and formal interactions to do so are 
especially critical in this budget climate. S&T currently uses an 
established and formalized mechanism for these interagency 
relationships. These formalized relationships include established 
Memoranda of Understanding with other Federal agencies; working groups, 
and committees established through the Office of Science and Technology 
Policy (OSTP); and joint programmatic investments and reviews with 
organizations such as the Technical Support Working Group, the Joint 
Improvised Explosive Device Defeat Organization, and the United States 
Special Operations Command.
    The majority of these interactions are conducted through formal 
interagency working groups and committees in areas of shared mission 
space such as chemical and biological defense, explosives detection, 
cybersecurity, and physical security. Participation on these committees 
and working groups ranges from the Under Secretary to individual 
program managers. Under Secretary O'Toole currently co-chairs the 
National Science and Technology Council's Committee on Homeland and 
National Security, along with the Assistant Secretary of Defense for 
Research and Engineering and the Associate Director for National 
Security and International Affairs within OSTP. In particular cases, 
such as port and coastal security, S&T is the lead organization of 
these larger agency working groups that include DoD and their 
subsequent areas of interest.
    S&T has worked with the United States Visitor and Immigrant Status 
Indicator Technology (US-VISIT) Program, the National Institute of 
Standards and Technology (NIST), and the Naval Postgraduate School to 
test new technologies. That includes facial and iris recognition in 
both laboratory and field settings and testing on how to successfully 
link these technologies to fingerprint biometrics stored in US-VISIT's 
Automated Biometric Identification System (IDENT).
    S&T has successfully leveraged multiple DoD technologies over the 
years in the biometric, chemical/biological, and explosives fields and 
S&T has established a formal technology foraging office that leverages 
opportunities from other agencies, universities, the private sector, 
etc. to increase the field of view and ensure confidence that all 
potential possibilities are explored.

                                 <all>

</pre></body></html>
